<html>
<title> - AIRPORT SECURITY: THE NECESSARY IMPROVEMENTS TO SECURE AMERICA'S AIRPORTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   AIRPORT SECURITY: THE NECESSARY IMPROVEMENTS TO SECURE AMERICA'S 
                                AIRPORTS 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON TRANSPORTATION
                      SECURITY AND INFRASTRUCTURE
                               PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 19, 2007

                               __________

                           Serial No. 110-25

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

43-561 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 SHEILA JACKSON LEE, Texas, Chairwoman

EDWARD J. MARKEY, Massachusetts      DANIEL E. LUNGREN, California
PETER A. DeFAZIO, Oregon             GINNY BROWN-WAITE, Florida
ELEANOR HOLMES NORTON, District of   MARSHA BLACKBURN, Tennessee
Columbia                             GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York           PETER T. KING, New York (Ex 
ED PERLMUTTER, Colorado              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                      Mathew Washington, Director

                          Erin Daste, Counsel

                   Natalie Nixon, Deputy Chief Clerk

                 Coley O'Brien, Minority Senior Counsel

                                  (ii)




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, Ranking Member, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     4
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    20
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    15
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................     4
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    19
The Honorable Ginny Brown-Waite, a Representative in congress 
  From the State of Florida......................................    17

                               WITNESSES
                                Panel I

The Honorable Kip Hawley, Assistant Secretary, Transportation 
  Security Administration:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                                Panel II

Mr. William E. Holden, Senior vice President of Operations, 
  Covenant Homeland Security Solutions:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Mr. Greg Principato, President, Airports Council International--
  North America:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29
Ms. Lauren Stover, Assistant Aviation Director for Security and 
  Communications, Miami-Dade Aviation Department:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                             For the Record

Material submitted by Hon. Ginnie Brown-Waite....................    44


                    AIRPORT SECURITY: THE NECESSARY
               IMPROVEMENTS TO SECURE AMERICA'S AIRPORTS

                              ----------                              


                        Thursday, April 19, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:37 a.m., in 
Room 340, Cannon House Office Building, Hon. Sheila Jackson Lee 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, DeFazio, Clarke, 
Perlmutter, Lowey, Lungren, Brown-Waite, Bilirakis, and 
McCarthy.
    Ms. Jackson Lee. [Presiding.] Good morning. The 
subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
the necessary improvements to secure America's airports and 
what the Department of Homeland Security is doing to protect 
our nation's airports.
    However, before I begin, I would like to ask for unanimous 
consent that Ms. Lowey, who I know will be joining us, a member 
of the full committee, be able to sit and question the panel 
during today's hearing.
    Hearing no objection, it is so ordered.
    Let me, first of all, thank all of you.
    Mr. Lungren, come in. We were just mentioning that you were 
en route, and we thank the ranking member.
    I yield myself 5 minutes for an opening statement.
    Let me, first of all, say that we have a bounty of activity 
today, and because of that, we are told that there may be votes 
in a short while.
    I am going to abbreviate my remarks so at least, Mr. 
Hawley, we can begin and you may be interrupted during your 
testimony.
    Let me acknowledge the presence of the ranking member, Mr. 
Lungren, the esteemed distinguished member of the committee, 
Mr. DeFazio, also subcommittee chair on Transportation and 
Infrastructure, Mr. Bilirakis, a member of the committee now, 
Ms. Brown-Waite as well, who is present.
    I think it is important to note the philosophy of this 
committee, and, Congresswoman Lowey, we have already 
acknowledged, your presence here today, and we thank you so 
very much for your leadership.
    It is very clear that the Homeland Security Committee has 
one of the most daunting responsibilities in this House. 
Without any reflection negatively on any other committee, we 
recognize that as we have looked mourningly at the horrific 
tragedy of this past Monday, in each of my committees, I have 
offered to the community of Virginia Tech, the state of 
Virginia our deepest concern and certainly our respect, our 
love and recognition of the horror of which they experienced.
    But we also know that as time moves on, the questions are 
asked, ``What if?'' And this committee would, unfortunately, 
hold in their hands that one question, ``What if?'' And so this 
committee is looking forward, along with a cooperative effort 
with the Transportation and Infrastructure Committee, close 
working relationships with the full committee chair and 
subcommittee chairpersons of a number of subcommittees, to 
begin to get in front of these many issues.
    Today, we will look at a number of security issues. Mr. 
Hawley we hope that you will provide us with insight on a 
number of issues. But we certainly are interested in the whole 
landscape of airports; certainly that of passenger travel and 
the new technology that we have utilized, but we know the 
airports are like cities, and, therefore, we are looking at the 
comings and goings of so many different people.
    We need not recount some of our more horrific stories, 
maybe the shoe bomber, something that we had not heard of 
before. We knew about airplanes but certainly not passengers 
with bombs on their feet.
    Similarly, we don't know of the comings and goings of the 
many people that come inside of the airport beyond the area of 
security. We also know that airplanes and air carriers have to 
work and function. We need pilots, we need flight attendants. 
We need to make sure that they get to their planes on time. 
Probably, we would hear more of an outcry from passengers about 
late pilots and flight attendants maybe than their own 
security.
    So this committee today is making the statement that we are 
going forward to take a fine tooth comb, a microscope, if you 
will, to look at our airports as we look at our rail systems, 
our mass transits, our critical infrastructure to ensure that 
we are in fact working together to mitigate, to diminish, to 
lower the ``what if'' question.
    I think it is important to know that checked baggage is 
screened for explosives, that it is more likely that the flight 
has air marshals on board, crew members are trained in 
defensive measures and some pilots volunteer for the Federal 
Flight Deck Officer Program to carry firearms to protect the 
cockpit, some of the things that we have agreed or disagreed 
on.
    We also recognize that it is very clear that TSA has not 
lived up to its obligation under the Aviation, Transportation 
and Security Act, which mandates in section 106 improved 
airport perimeter access security that, ``The undersecretary 
shall require as soon as practical after the date of enactment 
screening or inspection of all individuals, goods, properties, 
vehicles and other equipment before entering a secured area of 
an airport.''
    In addition, this section also states that, ``The screening 
or inspection will, at a minimum, be as rigorous as screening 
of passengers and their baggage.''
    Certainly, it is unthinkable after 5 years after September 
11 a solution as fundamental and simple as this one still has 
not been implemented, but it is important to note that a 
meeting with the transportation and security administrator, Mr. 
Hawley, he has initiated a seven-point initiative that I hope 
he will explain, which begins to lay a thoughtful concept of 
beginning to find out who in fact are in America's airports.
    So I look forward to the testimony today, and I want us to 
collectively demonstrate to the nation that we are the 
committee not of what ifs but how can we and what can we do 
ahead of time, because we value the security of America every 
single day that we have the responsibility of that important 
challenge.

    Prepared Opening Statement of the Honorable Sheila Jackson Lee, 
Chairwoman, Subcommittee on Transportation Security and Infrastructure 
                               Protection

    I would like to take this opportunity to thank you all for joining 
us this morning so that we can begin our exploration of the topic of 
Airport Security and examine what steps we must take to secure the 
Nation's airports.
    In the wake of September 11th, aviation security was made a federal 
responsibility, and I think everyone here today would agree that 
aviation security has improved substantially.
    Protecting the Nation and shoring up aviation security requires a 
layered approach.
    For example, today, checked baggage is screened for explosives, it 
is more likely that the flight has air marshals on board, crew members 
are trained in defensive measures, and some pilots volunteer for the 
Federal Flight Deck Officer (FFDO) program to carry firearms to protect 
the cockpit.
    However, given the fact that there is an existing threat of liquid 
explosives, the fact that all passengers names are not checked against 
the full terrorist watch list, and the fact that we do not screen those 
who have access to secure areas, it is very clear that TSA has not 
lived up to its obligation under the Aviation and Transportation 
Security Act (ATSA, P.L. 107-71) of 2001 mandates in Section 106--
``Improved Airport Perimeter Access Security''. This section states 
that the Under Secretary--shall require, as soon as practicable after 
the date of enactment, screening or inspection of all individuals, 
goods, property, vehicles, and other equipment before entering a 
secured area of an airport.
    In addition this section also states that the screening or 
inspection will, at minimum, be as rigorous as screening of passengers 
and their baggage.
    It is unthinkable that more than five years after September 11th, a 
solution as fundamental and simple as this one still has not been 
implemented. At our nation's airports we meticulously screen passengers 
and baggage. However, many of the Nation's airport employees and 
contractors are currently free to roam wherever they want, even in 
``sterile'' areas, without prior screening. Giving workers open access 
to a ``sterile'' area is like installing an expensive home security 
system but leaving your back door wide open.
    This is a huge security gap that already has been exploited for the 
purposes of carrying out criminal activities and I believe that if we 
continue to use TSA Band-Aid approaches, it is only a matter of time 
before terrorists exploit this vulnerability to attack our nation.
    As Member of Congress and more specifically, as Members of the 
Committee on Homeland Security, we have a responsibility to make sure 
our planes and airports are secure. We are at a crossroads--where we 
must take action to find out what is the best way to provide a safe, 
secure, and functional aviation system. If we do not put effective, 
safety measures in place, our Nation may very well be susceptible to 
another attack, which in turn will cause a major avoidance of 
commercial aviation. This potential avoidance would subject us to grim 
economic consequences. We must continually earn the confidence of the 
flying public. In order to ensure that the public continues to enjoy 
the freedom of mobility that flying provides, we must demonstrate to 
them that our Nation's airports are secure.

    Ms. Jackson Lee. It is now my honor to recognize the 
ranking member of the subcommittee, the gentleman from 
California, for an opening statement for 5 minutes.
    Mr. Lungren. I thank the gentlelady for the time, I thank 
the other members for their attendance, and I thank our 
witnesses for being here.
    We know that we have done a lot of work in the area of 
aviation safety and security, and we know that that has made us 
much safer than we were on 9/10 or 9/11, but we also know that 
much more remains to be done. And there has been the interest 
of members in particular of this committee about the question 
of security with respect to those employees who have access to 
otherwise secure parts of the airports.
    And there has been a debate about a perimeter defense, if 
you will. I look forward to hearing from Mr. Hawley about that 
approach versus the new initiative that he is announcing, how 
they might differ, how they might have aspects of separation 
that may make some airports more conducive to one approach and 
other airports conducive to another.
    I also believe that it is important for us to have pilot 
projects to go forward so we can have some comparisons and also 
so that we can move forward rather than just talk about it.
    And, lastly, I would just like to mention that, as Mr. 
Hawley knows, there has been a concerted interest on this 
committee for the effective use of canine units, the ability 
that they have to supply your department with an agility that 
they might otherwise not have and that that may answer some of 
the questions with respect to construction concerns that we 
have that confront us when we are dealing with machines of 
technology.
    So I look very much forward to hearing the testimony of our 
witnesses today about what they believe is the best approach 
for eliminating the threat that may be posed by airline 
employees.
    Let's say, for the record, most of the airline employees do 
an outstanding job, are loyal Americans, but what we are 
looking at are potential vulnerabilities and how we avoid those 
vulnerabilities.
    And with that, Madam Chair, I would yield back the balance 
of my time.
    Ms. Jackson Lee. I thank the distinguished ranking member.
    Let me acknowledge the presence of Mr. McCarthy as well. 
Welcome.
    And let me ask unanimous consent to yield to the gentlelady 
from New York 30 seconds.
    Mrs. Lowey. Thank you very much, and I wanted to thank the 
subcommittee chair, Ms. Jackson Lee, and the ranking member, 
Mr. Lungren, and Chairman Thompson and Ranking Member King for 
allowing me to participate in this critically important 
hearing.
    I look forward to working with each of you to advance my 
legislation to initiative a pilot program for screening airport 
workers and to take additional steps toward achieving total 100 
percent screening at U.S. airports.
    Additionally, I want to thank Assistant Secretary Hawley 
for the frank discussion we had yesterday afternoon. I know we 
don't agree, we don't see eye to eye on which strategies would 
be most effective, but I did appreciate the opportunity to 
continue having an open and frank dialogue with you of the 
issue.
    And I do want to thank Ms. Brown-Waite for being an active 
cosponsor of this legislation.
    Thank you very much. We look forward to the hearing.
    Ms. Jackson Lee. I thank the gentlelady.
    At this time, I would like to welcome Kip Hawley, the 
assistant secretary of the Transportation Security 
Administration at the Department of Home Security, and I would 
correct that and say he is an assistant secretary of Department 
of Homeland Security and administrator for the Texas--Texas on 
my mind--Transportation Security Administration.
    You know what happens when you come from a big state.
    I want to say to you, as Congressman Lowey has said, 
overall, I think it is a good tension between this committee 
and the Department of Homeland Security in terms of oversight. 
We don't always agree, but let me acknowledge that you have 
been a wonderful breath of fresh air with respect to the 
dialogue and the interest that you have had in working with 
Congress on this very large challenge that we have. We are 
delighted of the new attitude, and we certainly welcome you to 
this committee.
    Might I say that, without objection, Administrator Hawley's 
full statement will be inserted into the record.
    And now I ask that you summarize your statement for 5 
minutes. And thank you for being here.

      STATEMENT OF HON. KIP HAWLEY, ASSISTANT SECRETARY, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Hawley. Thank you. Thank you for those kinds words.
    Good morning, Madam Chairman, Mr. Lungren and members of 
the committee. Thank you for this opportunity to discuss 
security at America's airports, as you prepare to mark up 
legislation in this area.
    We generally look at aviation one slice at a time. We look 
at what do we do for employee screening, for air cargo, for 
passenger checkpoint baggage, perimeter security, one by one. 
But it is very, very important that we keep in mind that to 
terrorists we are one target, and they don't care which 
particular place they attack.
    So we need balance and flexibility in all of our security 
measures. If we jump from concern to concern, mandating 
measures for each one, we may tie up critical resources that do 
nothing more than make it easy for a terrorist to attack 
somewhere else.
    If an attack is successful, it does us no good to say that 
we were impenetrable at a different spot.
    I will outline for you this morning TSA's plan for 
effective screening of airport employees. It is, in my view, 
the most effective security for this environment.
    Passenger screening uses a different model than airport 
employee screening, and it makes common sense that we use a 
different approach. Passengers come to the airport, and not 
much is known about them. We move them through security and 
hold them in a sterile area before they board the plane.
    It is a completely different thing with airport workers. We 
know a lot about them, and they are well-known to each other. 
When they come to work, they are gaining access to the 
equivalent of a small city, which already contains more than 
enough raw materials to commit a terrorist act.
    Therefore, keeping track of people and what they are doing 
is a better approach to security. It doesn't make sense to dig 
in security resources, looking in lunch pails when the real 
vulnerability is what happens inside the airport property.
    Magnetometers cannot detect suspicious behavior. In fact, 
installing fixed checkpoints makes the job easier for 
terrorists. Although it may be comforting for us to see 
employees in line for screening, a checkpoint provides an 
unchanging, predictable barrier that sits in one place every 
day. The terrorist can spend all the time he or she needs to 
find ways around, over or through that checkpoint.
    For this reason, we must use many layers of security, each 
one nimble, unpredictable and dynamic. And just as we are 
pushing the perimeter of security past the checkpoint for 
passengers with behavior observation, document checkers, 
canine, things like that, we are using the same strategy when 
it comes to employee screening. This leads me to the plan I am 
here today to discuss.
    With our airport partners, including airport law 
enforcement, we have agreed to create a practical, workable 
solution to employee screening. It is an evolution on top of 
what we do today and adds real risk-based security.
    TSA already has a layered approach in place for the 
nation's airport workers, and I have outlined that in my 
prepared statement; be happy to talk about it.
    But here is what we are adding on top of it, a six-point 
security plan for employee screening as follows. Number one, 
behavior observation. The population of highly skilled officers 
will grow beyond TSA to include airport employees trained to 
recognize hostile intent and suspicious behavior.
    Second, employee training on top of what they receive 
already will raise awareness of suspicious behavior and what to 
do about it when you find it.
    Three, targeted physical inspection. We will now add 
airport employee to roving patrols to TSA's random, 
unpredictable employee screening. That is on top of everything 
we do in the random sector. This adds additional physical 
security screening, including at the point when they come to 
work.
    Fourth, biometric access control. This will add security by 
knowing who is where in the airport.
    Fifth, certified employees will create a new level of 
employee risk assessment that will allow established low-risk 
employees easier mobility to do their jobs.
    And, finally, the technology component where security 
technology will continue to be deployed and developed for 
specific use in the airport environment, add things like 
cameras and not necessarily new things that have to come out of 
R&D but an integrated use of cameras can have tremendous 
security effect.
    Better overall security is achieved if personnel are not 
tied down to checkpoints, checking and rechecking people that 
work in the airport every day. We want our security resources 
on the move so that terrorists cannot plan an attack knowing 
what defenses they will face.
    I appreciate the committee's interest in working with us on 
a pilot approach to further explore the options, and we will be 
good partners in the effort. And I see a lot of common ground 
with where we want to go, and the pilots will be a good way for 
us to establish further data to move forward.
    We don't need, however, to wait to implement what I just 
outlined. We have already begun to work to start 
implementation.
    So thank you for your time and attention. I would be happy 
to answer your questions.
    [The statement of Mr. Hawley follows:]

 Prepared Statement of the Honorable Kip Hawley, Assistant Secretary, 
                 Transportation Security Administration

    Good morning, Chairwoman Jackson-Lee, Ranking Member Lungren and 
members of the subcommittee. I am pleased to appear before you today to 
discuss airport security.
    At every airport security requires partnerships. TSA, airlines, 
airports, law enforcement and passengers must work together. Only 
through cooperative partnerships are we able to provide a robust 
security system. But airport security is only one layer of security in 
a larger security system whose mission is to reduce the risk of 
emerging threats to the entire transportation system.
    Aviation security begins well before a passenger arrives at the 
airport.
        1. U.S. government agencies work with others around the globe 
        to identify and disrupt terrorist activities at their source.
        2. Customs and Border Protection activities further identify 
        potential terrorists and bar their entry into the United 
        States.
        3. Federal, State, and local law enforcement work together with 
        the FBI in Joint Terrorism Task Forces across the United States 
        to identify and disrupt terrorist activities within the U.S.
        4. A No-Fly system is used to prevent anyone known to an agency 
        of the U.S. government to be a threat to commit a terrorist act 
        from flying into or in the United States.
        5. Airline flight crews and airport employees who have access 
        to an aircraft are subject to an even stricter vetting standard 
        than the No-Fly analysis.
        These first five security elements mean that anybody known to 
        U.S. intelligence or law enforcement agencies as a terrorist or 
        a close terrorist associate never gets close to an airplane. 
        But there is much more.
        6. An additional, risk-based computer-assisted pre-screening of 
        passengers is conducted before a boarding pass is issued.
        7. Hundreds of canine teams and local law enforcement officers 
        are working at airports across the country to identify 
        suspicious articles or people.
        8. Surveillance activities take place in and around the airport 
        environment on a daily basis. In 31 airports today, specially 
        trained Behavior Detection Officers look for suspicious 
        behavior.
    All of this happens before a passenger even shows up at a TSA 
checkpoint.
        9. At the checkpoint, a professional, well-trained, experienced 
        team of Transportation Security Officers (TSO), assisted by 
        multiple technologies, screens passengers and their carry-on 
        bags for weapons and explosives.
        10. In the baggage area, similarly well-trained, experienced 
        Transportation Security Officers use a variety of technologies 
        to screen baggage, and, when necessary, they physically search 
        baggage to resolve anomalies.
    Then, on the aircraft:
        11. Thousands of Federal Air Marshals fly undercover on a very 
        significant number of flights, both domestic and international.
        12. Thousands of pilots who undergo special training and become 
        Federal Flight Deck Officers are authorized and ready to 
        protect the cockpit with firearms.
        13. Other local, State, and Federal law enforcement officers 
        travel armed as part of their normal duties and are prepared to 
        intervene.
        14. Hardened cockpit doors prevent unauthorized access to the 
        flight deck.
        15. And sitting on every airplane are passengers who remember 
        the courage and commitment of the men and women on United 
        Flight 93, and who are prepared to act, if necessary.
    Each and every one of these 15 security layers is important.
    Relying solely on security at the checkpoint or focusing all of our 
resources to defeat one threat is counterproductive and detracts from 
our overall mission. The 9/11 Commission recommended a layered security 
system saying: ``No single security measure is foolproof. Accordingly, 
the TSA must have multiple layers of security in place to defeat the 
more plausible and dangerous forms of attack against public 
transportation.'' (p.392).
    Control of access to sterile and secured areas is just one of the 
many aviation security layers we have in place. We recognize that, 
despite our efforts to make each layer as strong as possible, a 
concerted effort directed at any one layer could be successful. But 
there is tremendous power in the reinforced, multiple layers. Truly, 
the whole is greater than the sum of the parts--and, together, they are 
formidable.
    This plan is more rigorous than 100 percent machine screening of 
employees at a stationary checkpoint. Because airport employees move 
about the facility and are not confined to a sterile area (as are 
passengers), they have access to items throughout the airport and to 
items introduced at the perimeter. The idea is not to check all 
employees at specific, known locations, but to check them throughout 
the facility, to discern hostile intent, to track their movement 
patterns, and to train employees to detect suspicious behavior. An 
added dimension of this plan is to narrow the field of employees that 
we need to know more about on a regular basis. We can do this by 
creating a level of ``certified employees'' who have been subjected to 
a more rigorous, initial level of scrutiny on a voluntary basis and 
remove them from the regular, but not random screening regimen.

Employee Background Screening
    Today, someone working in a sensitive airport environment undergoes 
extensive review before being allowed unescorted access. Airports must 
submit fingerprints for each individual who is employed or performs 
duties in the Security Identification Display Area (SIDA) or the 
sterile area at our Nation's airports. The fingerprints are used to 
conduct a criminal history records check to ensure that the airport 
does not grant unescorted access to individuals whose background 
reveals a disqualifying criminal offense. TSA also conducts name-based 
security threat assessments of the name against its terrorism and other 
Federal databases of these individuals as well as anyone with an 
airport-issued identification medium that allows access to these areas. 
Any name that is a possible match to a database is referred to 
appropriate law enforcement or intelligence agencies to determine 
whether the individual's identity can be verified, and whether the 
individual continues to pose a threat. TSA informs airlines or airports 
if an individual's access to secure areas must be denied or rescinded. 
TSA will soon increase the scope of the Security Threat Assessments to 
include any individual who holds or is applying for airport-issued 
personnel identification medium. The Security Threat Assessments of all 
identification medium holders are conducted on a perpetual basis.
    Generally, in order to access sterile or secured areas, anyone who 
has not been issued a Security Identification Display Area (SIDA) badge 
for a particular airport, including airport and airline personnel, 
vendors and contractors, and even TSA employees, must pass through the 
TSA security screening checkpoint and submit to the same physical 
screening process that passengers must pass through before boarding an 
aircraft.
    Airport operators are responsible for developing and implementing 
TSA-approved airport security programs procedures and processes to 
control access to sterile, secure and SIDA areas. These programs must 
include badging, a challenge program, and a compliance regime. All 
entrances must be secured, and this is generally accomplished by guards 
or with electronically controlled locks. Nearly 1,000 TSA Aviation 
Security Inspectors ensure that airports and air carriers comply with 
the regulatory requirements. In addition, although individuals with a 
SIDA badge are not required to pass through a screening checkpoint in 
order to access SIDA areas, TSA, for some time now, has been conducting 
physical screening of individuals and vehicles entering SIDA areas on 
an unpredictable basis at numerous airports.
    By building unpredictability into our screening and oversight 
operations, deploying new technology as it becomes available, and 
utilizing all of our resources more flexibly, we can continue to 
improve the formidable system of layered security that now exists.

Aviation Direct Access Screening Program (ADASP)
    In July, 2006, TSA implemented the first version of the ADASP that 
requires screening of airport employees, their accessible property and 
vehicles upon entering a direct access point screening location for 
identification, prohibited items and items of interest. Again, while I 
cannot discuss all of the operational details of ADASP in this setting, 
I can tell you that the program emphasizes the random and unpredictable 
aspect of our approach to security. Its scope can take in all or some 
components of airport security to include gate screening, SIDA 
identification, cargo or the aircraft itself. Its specific focus, 
location and duration remain dynamic. It may also include assisting 
airport and aircraft operators in the performance of their security 
responsibilities. With our current personnel policies, we are able to 
surge these activities, as in Orlando, on very little notice.

Recent Incident at Orlando
    On March 5, 2007, TSA ordered a Delta flight from Orlando to San 
Juan to be reverse-screened upon arrival, based on information that 
there were potentially weapons onboard the aircraft. An individual 
carrying 14 weapons and eight pounds of marijuana was apprehended upon 
deplaning in Puerto Rico. TSA coordinated efforts between Orlando and 
San Juan that included local police in both jurisdictions and the FBI. 
Because an investigation is still ongoing, there is a limit to what I 
can say in this setting.
    The incident, however, raised regional and national awareness of 
the employee ``insider threat'' at our nation's airports. TSA quickly 
deployed more than 160 transportation security officers, aviation 
security inspectors, Federal Air Marshals and other personnel to 
augment already existing employee and passenger security efforts.

Shared Responsibility
    TSA recently expanded its ADASP through Saturation Security Teams 
(SST) at airports in the region including Orlando, Miami, Fort 
Lauderdale, Tampa and San Juan. In addition to ADASP, the teams 
employed behavioral observation techniques, aviation security 
inspections and other demonstrations of random-continuous security. 
This operation was marked by a sharp increase in random, unpredictable 
screening of employees in secure areas. Access to secure areas was 
limited during non-business hours and door access during those hours 
was audited for suspicious activity. We deployed integrated teams of 
Federal Air Marshals, K-9 teams, law enforcement officers and 
transportation security officers to areas throughout the airport. We 
conducted random screening of employees and passengers at boarding 
gates, including using behavior observation techniques, and we randomly 
inspected aircraft.
    The recent surge illustrated TSA's ability to implement random, 
unpredictable security enhancements anywhere in the nation on short 
notice. Surges are now a permanent part of our security posture and 
could occur anywhere, at any time, as part of our unpredictable 
approach.
    This mobilization illustrates TSA's ability to quickly and 
unpredictably deploy assets based on risk. The agency has developed a 
longer-term, sustainable plan with our airport and airline partners not 
only for the Florida/Puerto Rico region, but for the entire U.S. 
aviation system. TSA will conduct additional operations in other 
regions in the coming weeks and months on an unannounced basis. 
Finally, with regard to TSA's workforce at Orlando, several new 
measures have been established that will further tighten security at 
Orlando.
    At the request of Greater Orlando Airport Authority (GOAA), TSA has 
entered into a 90- day agreement to take over employee screening at the 
SIDA access doors in the passenger terminal in exchange for GOAA taking 
over non-security functions that TSA previously provided. Additionally, 
GOAA has entered into a contract with a private provider to conduct 
employee screening at the vehicle checkpoints. While TSA advocates a 
multi-layered approach to security, we are willing to assist our 
airport partners in Orlando to meet their goal on a short-term basis. 
Because of the airport's limited number of employee access doors and 
willingness to provide personnel to conduct non-security functions, TSA 
is able to come to this agreement without negatively impacting security 
in other areas or wait times.

Conclusion
    Over committing TSA resources to inflexible, resource-intensive 
measures is not consistent with our risk-based approach to aviation 
security. TSA moves resources in a flexible, unpredictable fashion to 
address both known and unknown threats with a layered security 
approach.
    Airports have primary responsibility for employee screening, with 
TSA acting as a regulatory authority. This operation, as well as the 
broader ADASP program, augments airport security already in place.
    TSA employs a risk-based approach to security, including roving 
transportation security officers that search employees, their packages 
and their vehicles. Every employee should have a reasonable expectation 
that they could be screened at any time, at any access point within the 
footprint of the airport. That applies to all airports, not just where 
a surge is occurring.
    I am aware of Representative Nita Lowey's introduction of HR 1413 
as well as HR 1690 to require pilot programs for physical screening of 
airport workers with access to secured and sterile areas of airports. I 
look forward to working with Representative Lowey and the Subcommittee 
on this very important issue.
    By building unpredictability into our screening and oversight 
operations, deploying new technology as it becomes available, and 
utilizing all of our resources more flexibly, we can continue to 
improve the formidable system of layered security that now exists.
    Ms. Chairwoman, thank you again for the opportunity to testify 
today. I would be happy to respond to questions.

    Ms. Jackson Lee. Thank you very much.
    At this time, I would like to remind each member that he or 
she will have 5 minutes to question Assistant Secretary Hawley.
    And I thank him for his insightful testimony.
    And I will now yield myself 5 minutes for questions.
    I said earlier that many times we have moments of agreement 
and many times moments of disagreement. I, frankly, think that 
it was important for you to make this announcement. I think 
also the committee believes that it is long overdue and, 
frankly, should have been done more than a number of years ago.
    So in my first question, or a series of questions, I will 
ask two together, is for you to give me a sense of urgency to 
complete these elements but more importantly then to move to 
next steps. And, as you well know, there is underlying 
legislation that we will be looking at, as well as a number of 
amendments on the question of who is at our nation's airports 
and how are they documented.
    Then I would like you to answer a more specific question 
that I think gives us a sense of the problem, and that, of 
course, the issue at Orlando International Airport that 
happened with the Comair employees and those who, I think, were 
able to game the system. How long did they exploit the breach 
and what exactly happened?
    Mr. Hawley. I will take them in order of pace.
    We agree with you on the urgency of it, and since the 
August liquids threat when the airports really were able to 
help us--and airlines--stand up a totally new security regime 
overnight, we did that in August and have been sustaining at a 
very high level of alert, including at the orange level, which 
requires significant additional activity by airports.
    And as we have been discussing how we can make those 
measures sustainable if we have to keep it orange, we have been 
developing solutions together to increase the security and be 
able to sustain at that high level. So that is really the 
genesis of what I am talking about, and it is with a great deal 
of urgency that we get after it, because we do recognize the 
possibility for someone trying to use employees.
    Now, on the Orlando incident, specifically, I can't get 
into the exact details of that, because that is an ongoing 
active investigation, but it does raise the issue of who are 
these people working at our airports, how much do we know about 
them, what security is there?
    So, in general, without specific to that exact thing, one 
of the learnings from that involves--when I said knowing who is 
at the airport, we already do know that, because we do all the 
background checks, and we keep track of them with their badge, 
but knowing where they are at the time, this is an additional 
way to get at it.
    So if somebody is normally supposed to be in one place and 
shows up in another, there is a good opportunity, if we can 
capture that and address it at--
    Ms. Jackson Lee. Have you discovered how long the breach 
was going on?
    Mr. Hawley. Well, that is subject to an FBI investigation, 
and I think in a non-public setting we or the FBI could give 
you the full story.
    But mentioning the FBI, it is also important to note that 
their joint terrorism task forces are extremely active and 
include the airport jurisdiction. So in addition to everything 
TSA does, the FBI joint terrorism task forces are all over what 
is going on at airports. And if there is the first sniff of 
anything involving something with terrorists, that is a red hot 
thing that we all get on.
    Ms. Jackson Lee. But you can understand our concern, 
Assistant Secretary, when--and you are right, we will have a 
further classified briefing, but you can understand the public 
statement is that there has been a breach. We don't know how 
long that breach has occurred. We don't know whether there are 
many breaches going across America's airports. And, therefore, 
it is more than a sense of urgency that we have standards, 
regulations, enforcement.
    And so someone might think whether or not the announcement 
yesterday would have anything to do with the fact that there 
are potential legislative initiatives being acted upon.
    Mr. Hawley. I think we are grateful for the public 
attention on the issue that this brings, and it is taking an 
opportunity to get the public focused on it and to say, ``Yes, 
these are things that we are doing on top of the other 
measures.''
    But we have an ongoing, it is an evolution, we will never 
finish adding security to the system and finding better, more 
practical ways to get it done.
    Ms. Jackson Lee. So you are not intending to put an 
undermine under the legislative initiative going forward.
    Mr. Hawley. No. No. I think, frankly, this is baseline 
thing, and it is, I believe, completely compatible with Mrs. 
Lowey's bill on the pilots. We can work with the committee to 
agree on a series of pilots.
    Ms. Jackson Lee. There are so many bells.
    Let me thank you for your testimony, and let me now yield 5 
minutes to the distinguished ranking member.
    Mr. Lungren. I think I know what we are going to be doing 
in a few minutes.
    Thank you very much for your testimony, Mr. Hawley.
    Six-point plan, how soon is that going to be actually 
implemented?
    Mr. Hawley. The elements regarding training, we are working 
on now to define exactly what that training is. We have got the 
training for our TSOs and now to package it for use for airport 
environment will not be a difficult thing. The airports already 
do a lot of training. So I think that is the first one out. I 
would be looking in the 3-month range to get that going.
    The most longer-term one would be the biometrics. So I 
think in this year we will have the standards or a concept of 
operations, how that will come into place.
    Mr. Lungren. And I know you touched upon this in your 
testimony but I wish you had elicited a little bit more on the 
challenge that you have for securing the entire airport 
environment with respect to employees that may be moving around 
and I think, as you mentioned, their ability, once they gain 
access to the airport to find things that taken together or 
even individually could be used as weapons or cause destruction 
of a damaging nature.
    And you talked about the multilayered approach, but what I 
am trying to get at is how do we as a committee come up with 
legislation that directs you to do what I think you know we 
want to done but gives you the flexibility so that it can 
actually be accomplished with the reality of the different type 
of airports we have here? And how do we do that so it doesn't 
look like we are giving you a hedge so that you are not doing 
what we are actually asking you to do?
    Mr. Hawley. Yes. I think the experience we have had working 
with air cargo is a good example where we started off in 
different places but wanted to get to the same security result. 
And I think as we have worked along over the last couple of 
months, that figuring a way to make it operationally feasible 
to get the very thorough screening for air cargo is a good way 
to look at this.
    And I think we can do the same thing here through the 
pilots. We want to get to the same result that the committee 
wants to and Mrs. Lowey wants to do in terms of measurable risk 
reduction in that environment.
    So by doing these pilots, I think that is a good way to do 
it, and then just continue to work together to make things 
operational, like the standard of passenger screening doesn't 
make sense in the backside of the airport where we have tens of 
millions of gallons of jet fuel and blow torches, and so for us 
to be confiscating lighters from workers coming in is not 
something that I think any of us would say that is a good idea.
    So we need to look at the actual specific of what the 
measure is and not tie us down and make it operationally 
infeasible. But we are willing to try very innovative things to 
achieve the result.
    Mr. Lungren. And the use of canines in this whole 
operation.
    Mr. Hawley. Very key part for the whole thing, because 
canines can work anywhere in the airport environment. Again, it 
is a wide variety of threats. Very good deterrent, very good 
effective bomb detection, and we are very enthusiastic about 
the canine program.
    Mr. Lungren. I mean, you are enthusiastic about it, but 
where are we in terms of number of teams necessary to do the 
job? Because this is something Mr. Pearce started us looking at 
a year or 2 years ago when he was on the committee. And there 
was some concern that while we need to pursue the technology 
fixes and the new machines and try and get the best technology 
in place, we might not be putting enough emphasis and enough 
money behind sufficient number of canine teams with the 
adaptability that they possess to do the various jobs that are 
necessary.
    Mr. Hawley. We are somewhere short of 400 dog teams, and we 
continue to grow that. This is--
    Mr. Lungren. You are not saying you are short 400 dog 
teams, you are saying you are just slightly less than 400.
    Mr. Hawley. Yes. Yes. I will have to get the exact number 
for the record, but it is around 400. It varies because we are 
kicking out new teams frequently. We are also putting them in 
the transit environment., so we use some of our dogs to go to 
transit. But we agree on that strategy of brining in dogs right 
now while we develop long-term technology.
    Mr. Lungren. Thank you.
    Mrs. Lowey. [Presiding.] Just in case there is a little 
confusion, the chair and Mr. DeFazio went to vote, so I am 
asking a question. Then we are going to recess, I gather, while 
we all vote and then come back. So I will be quick here.
    Mr. Lungren. So non-members of the subcommittee can be 
chair? Can I be the majority for the day?
    [Laughter.]
    Mrs. Lowey. I don't know.
    Okay. We will move quickly before you check that in the 
room.
    [Laughter.]
    Mr. Lungren. I reserve my objection.
    Mrs. Lowey. Thank you very much.
    If I can get through a couple of questions quickly, and 
then we will adjourn and go and vote.
    Does TSA have the screener and technology resources 
necessary to conduct 100 percent employee screening?
    Mr. Hawley. Not at the same level as passenger screening, 
no. It would almost double our total number of people screened.
    Mrs. Lowey. So at some point, I think it would be helpful 
to know specific numbers and what it would take to do it. 
Because it is always blown up, and there are all kinds of 
rationale, as you know, because you presented the rationale to 
me, but we never really get the accurate statistics. So we will 
follow up with you on that.
    Mr. Hawley. Yes, ma'am.
    Mrs. Lowey. Has TSA revised its screener allocation model 
to account for the additional duties required of screeners, 
such as randomly screening employees?
    Mr. Hawley. Yes, that is incorporated into our staffing 
model.
    Mrs. Lowey. Now, several airports report that TSA does not 
have adequate staffing to efficiently and effectively screen 
passengers, baggage employees, aircraft under the Aviation 
Direct Access Screening Program. And with the busy summer 
schedule fast approaching and the additional duties required of 
screeners, how will TSA ensure that passengers and baggage are 
processed in a timely manner while preserving a high level of 
security?
    Mr. Hawley. Every manager I have ever worked with didn't 
have enough resources, and I think that is true with our guys. 
We have run the numbers, and we are flexible on how we do the 
ADASP program. And I believe just like last year we will handle 
the passenger load effectively.
    Mrs. Lowey. Have you consulted with both airports and 
airlines in the development of your employee screening program?
    Mr. Hawley. Yes.
    Mrs. Lowey. Now, I understand that TSA has proposed a 
layered approach to enhancing airline-airport employee 
screening that includes targeted physical inspections, 
increased training on how to recognize suspicious behavior, 
monitoring of employee access points with cameras. Why do you 
think--you didn't convince me yesterday--so why do you think 
that approach is better than 100 percent physical screening by 
magnetometers?
    Mr. Hawley. Because if the screening by magnetometers is at 
the perimeter, as you mentioned, the resource to get at that 
screening would make it harder to do the screening on the 
inside of the airport, which is where the action is. And being 
unpredictable everywhere on the airport is something that is a 
far better security measure than saying once you break through 
the checkpoint on the outside, you have free reign of the whole 
city.
    Mrs. Lowey. Well, had the new policy that was announced 
yesterday been in place in Orlando at the beginning of March, 
would that have prevented the two individuals from boarding a 
plane with a bag full of firearms and narcotics?
    Mr. Hawley. I am not going to talk about that specific 
event, although I believe history will show there was no threat 
of a terrorist event on that particular flight, although it 
does raise valid issues about employee access.
    Mrs. Lowey. Okay. Now, wouldn't 100 percent physical 
screening have prevented the incident?
    Mr. Hawley. I can't talk about the actual operational 
details of that area. I would point out that guns and drugs are 
not unusual in the airport environment, and throwing things 
over fences and finding other ways than going through 
checkpoints is a possibility.
    Mrs. Lowey. However, if those workers had gone through a 
metal detector, would it not have detected what they were 
carrying?
    Mr. Hawley. They would have, I believe, the same result, 
because they did go through metal detectors. They just got 
their guns in a different way. So I don't dispute that adding 
additional screening on the outside can be very good for 
security. It just can't be a static measure that ties up all of 
your activity. It is a part of the puzzle, not the complete 
security.
    I would say from a real security point of view, keeping 
track of what is going on on the inside of the perimeter is of 
higher security value than magnetometers on the outside.
    Mrs. Lowey. I am a little confused here. You are talking 
about other ways to detect it. If there are guns hanging around 
the airport in a drug store or at a food store, we have real 
problems here. So you are saying that they could have gotten 
the guns in another way, and if we had a system whereby every 
worker had to go through a metal detector, they still could 
have gotten the guns in? Maybe we have to do a regular search 
of all the various booths or stores at the airport.
    Mr. Hawley. That is why the key thing is the people, 
because there are, in the normal course of business, all of the 
things you would use for a terrorist incident, including guns, 
in the normal course of business in the airport. So the trick 
is, yes, try to keep them out, but also know who those people 
are and keep an eye on them when they are inside.
    Mrs. Lowey. Well, I agree we have to do everything. The 5 
minutes is up. We have to vote. My 5 minutes is up.
    I must say, you are a persuasive gentleman, but you haven't 
convinced me that it doesn't make absolute sense to have every 
worker go through a metal detector. At least you are decreasing 
the odds.
    So I know we will have further discussion on this, and I 
would appreciate any additional information about cost, et 
cetera, because I feel when we are spending billions of dollars 
on our defense of our country when we are spending billions of 
dollars in Iraq, this is essential.
    So I thank you very much for appearing before us.
    The committee stands in recess.
    [Recess.]
    Ms. Jackson Lee. [Presiding.] We will re-begin the hearing.
    And I would like to yield 5 minutes to the distinguished 
gentleman from Oregon, former subcommittee chair to the 
Committee on Aviation for Transportation and Infrastructure, 
Mr. DeFazio.
    Mr. DeFazio. I thank the gentlelady for the time and for 
her leadership on this and other important homeland security 
issues.
    I guess, Mr. Hawley, I would like to ask what is proposed 
in terms of a pilot. Do we have, essentially, an ongoing pilot 
in Miami Airport? My understanding is they are screening all 
employees there.
    Mr. Hawley. I think we have functionally an ongoing pilot, 
and I believe in the next panel you will hear from Miami 
Airport, but it is a very good program.
    And I think one of the significant pieces about it that I 
view most effective is the behavioral observation training that 
the airport, in conjunction with Miami Police Department, has 
gone with for the employees. And that adds very significant 
security beyond whatever airport screening they do.
    Mr. DeFazio. This is sort of the neighborhood watch aspect 
of what you are proposing that TSA would adopt as a nationwide 
policy. And that is essentially, sort of, modeled a bit on what 
we are doing in GA, right, where we have, essentially, the 
Airport Watch Program?
    Mr. Hawley. Yes. The way I look at it, in a passenger 
environment, just think as if everybody on the plane flew the 
same flight every day with the same people. You get to know who 
belongs, who doesn't, what they are doing is normal or not. If 
we give them an avenue to relay that information, that is a 
huge security value.
    Mr. DeFazio. Right. Just for a moment, it is not on the 
topic, but the GA Program, are we funding that? I mean, it is 
very modest cost. Is that in the budget?
    Mr. Hawley. Well, the industry has taken that on and 
essentially does that themselves.
    Mr. DeFazio. I thought there had been some apportionment.
    Mr. Hawley. Well, I am sure there is a small amount of 
money, but--
    Mr. DeFazio. Okay.
    Mr. Hawley. --but I think it would not be fair to say that 
we fund that.
    Mr. DeFazio. No, no, but I thought that there was some 
contribution, that is all.
    So but as you are anticipating this, sort of, program in 
the airports, TSA would perform the training or you would 
contract for the training and those sorts of things, you would 
have roving security teams, as I understand it. Do you envision 
trying to move more people through security also?
    Mr. Hawley. I would definitely have the effect of screening 
more people. With our own program that we do with our 
transportation security officers, it is not trivial. It is on 
the order of 4 or 5 or more hours a day at airports across the 
country. So that is a significant piece of screening that goes 
on in various places around the airport. Adding to that would 
be a different program operated, for instance, by the airport 
to do the same kind of thing.
    Mr. DeFazio. And then just on the issue of if we were to 
move toward full screening of all employees and everything 
coming in the backside of the airport, do you have a cost 
estimate on that?
    Mr. Hawley. We have looked at that, and the number of 
people--about 800,000 people have SITA badges, and they go 
through frequently during the day. So if you just roughly 
double it, that is only twice a day, that is equivalent to what 
we do today.
    I think, in a practical sense, we would not go with 
passenger screening, as I mentioned, the lighter thing or take 
away tools. You can't take away tools more than 7 inches for 
airport workers. So there is some accommodation that will need 
to be made for practicality, and that would cut the cost down 
somewhat. So that is the detail. How many checkpoints you do, 
are you doing a ballpark look in the bag or how much are you 
going through the bag and examining each item? That will define 
the cost, and I think the pilots give us an opportunity to 
really field test what it does cost.
    Mr. DeFazio. What size airport would you recommend for a 
pilot?
    Mr. Hawley. I think, as Mrs. Lowey's bill includes, it 
talks about all sizes. Because, as you know, each airport is 
different, and each size airport has different things. And as 
you also know, at the very small airports, they don't have SITA 
badges, so you have to figure out what is the practical way of 
doing it. But at a small airport, everybody really does know 
everybody else.
    Mr. DeFazio. Now, as far as I know from our past 
conversations, in fact, I believe in a recent hearing or 
meeting, I can't remember, oh, briefing perhaps, we seem to see 
you a lot these days, TSA is asking this year that an 
additional 1,600 employees be in the budget; is that correct?
    Mr. Hawley. Yes, sir, for document checking purposes.
    Mr. DeFazio. Right. So you are, at the moment, if you had 
additional staff allowance or funding, your highest priority 
would be the document checkers.
    Mr. Hawley. That is correct.
    Mr. DeFazio. Where would you put--and maybe you don't want 
to say this in a public setting--never mind, I won't even ask 
that question.
    But let me point to the, kind of, obvious, I mean, what 
happened at Orlando. Is what you have proposed, I mean, what 
likelihood do you think that what you are proposing would have 
prevented that kind of penetration and problem?
    Mr. Hawley. Well, I am trying to figure out a way to give 
you the answer to your question without getting improperly into 
to the specifics. But I can say this, that we have looked very, 
very, very carefully at that as a learning experience, and we 
have taken whatever learnings are appropriate and incorporated 
them in our own practices as well as in some of things here. So 
I think although the specifics of that one I don't want to talk 
about, they do highlight the opportunity for inside employees 
to be turned against the system, and it is a serious thing we 
have to pay attention to.
    Mr. DeFazio. And then you also mentioned--just one last 
quick thing--cameras. I just had a recent visit at San 
Francisco, and they have an extraordinary system of cameras 
throughout and around the airport.
    Mr. Hawley. I think that is exactly what we are talking 
about.
    Mr. DeFazio. Okay. Thank you.
    Thank you, Madam Chair.
    Ms. Jackson Lee. Thank you very much.
    Let me remind members that I will recognize members who 
were present at the start of the hearing based on the seniority 
on the subcommittee, alternating between majority and minority. 
Those members coming in later will be recognized in order of 
their arrival.
    Might I now yield to the distinguished gentlelady from 
Florida, Ms. Ginny Brown-Waite, for 5 minutes.
    Ms. Brown-Waite. I thank the chairwoman for acknowledging 
me.
    And thank you, Mr. Hawley for being here.
    When I read over your testimony last night, I was 
absolutely shocked that you would say that the Orlando incident 
raised everyone's awareness.
    Sir, with all due respect, Nita Lowey and I and other 
members of this committee have been saying, ``There is a 
serious problem here at the backdoor of the airport.'' 
Actually, it was a TSA employee who tipped me off to this.
    Let me ask you this: When TSA employees report to work, do 
they have to go through the initial metal detector screening 
every day?
    Mr. Hawley. Yes.
    Ms. Brown-Waite. Do you not think that these are people who 
have been vetted, who have had their background checks done, 
who have certainly a higher level of security than perhaps 
someone who is on the cleaning crew or working at a restaurant? 
It flies in the face of what Americans believe security should 
be to know that the person who is checking them gets checked, 
but the backdoor people just come in with a little magnetic 
card. And so for you to say that America's awareness and the 
agency's awareness--
    Mr. Hawley. No, no. I did not say the agency's awareness. 
You will note in our ADASP Program was rolled out in June, and 
since I came to this agency, we went right after issues that 
are beyond the checkpoint, IEDs, we have been all over this, 
and I have had conversations, frankly, with Mrs. Lowey right 
from the start, and our program is now extremely sophisticated. 
As I mentioned, we have hundreds and hundreds of our TSOs 
working on these backdoor things, and they have been going on 
since last summer.
    Ms. Brown-Waite. Have you considered, perhaps, having the 
vendors add another nickel to the already unhealthy corndogs 
that they are selling to help to pay for this, because if their 
employees aren't truly being screened every day, we are asking 
for a problem.
    And, certainly, Ms. Lowey and I work together on this bill. 
It is something that needs to be done, but five airports, it is 
a good start and certainly your announcement yesterday, which 
was very timely in light of this hearing today, we need to have 
a better system there at the airport.
    Let me ask you a question: If a person is working for a 
vendor at the airport and they are screened, does it also 
include checking for the fact that perhaps they are an illegal 
immigrant?
    Mr. Hawley. Yes.
    Ms. Brown-Waite. And illegal immigrant employees do not 
pass the test; is that correct?
    Mr. Hawley. That is supposed to be the program. There have 
been some cases where with false, in the past, social security 
numbers, things like that. So there is a criminal history 
records check and a watch list check. And to that, the program 
that we have added here in the past number of months includes 
the immigration check.
    Ms. Brown-Waite. Sir, when you talk about random screening, 
Orlando already had random screening, and yet this incident 
occurred. Do you think that passengers should have random 
screening, and do you think TSA workers should have random 
screening?
    Mr. Hawley. Well, they all do, and I think everybody 
should. And perhaps you were not here earlier when I addressed 
the Orlando issue. I don't want to get into the specific 
details of a live case, but that, as history will show, did not 
involve a risk of terrorism on that particular flight. It did, 
however, present some interesting learnings about operations of 
people who are breaking the law in an airport environment, 
which obviously we have paid a lot of attention to.
    Ms. Brown-Waite. Sir, I want to work with the agency to 
accomplish the goal of making sure that passengers are safe. If 
the TSA workers have to go through that line, every member of 
Congress has to go through that line, every little old lady in 
a wheelchair has to go through that line, then it just is 
unfathomable why we are not taking that extra step. Because, 
obviously, as proven in the Orlando case, random doesn't work.
    Mr. Hawley. Well, it is a very different environment. In 
the sterile area that you get screened to go in as a passenger 
is a very limited holding tank that is swept for objects and is 
kept sterile. The airport work environment where workers work 
is a city, and it is not practical to have that be a sterile 
environment.
    What you want to do is keep track of the people inside. 
Know who is there, know where they are and what they are doing, 
because everything you need to do a terrorist act is already on 
the inside, and to check just what they are bringing in from 
the outside is not sufficient security.
    Ms. Brown-Waite. I have one more question, Madam Chair, if 
you will indulge me.
    In light of the fact that you have found illegal aliens who 
have the employee cards, are you regularly following up at 
doing at that point at least some random checking to see if we 
have illegals working at the airports?
    Mr. Hawley. Yes, we do. As part of the program I mentioned 
back in the back of the airport on these ADASP programs, we 
check not only what they have on them, who they are, valid 
credentials, all of those things are checked, including 
vehicles, vehicle searches. There is nothing on the airport 
that is exempt from TSOs out there screening at any time.
    Ms. Brown-Waite. Thank you, Madam Chairman.
    I yield back the time.
    Ms. Jackson Lee. We yielded the gentlelady, with unanimous 
consent, an additional 1 minute.
    I thank the distinguished gentlelady for her questions, and 
I now yield to Mr. Perlmutter, the distinguished gentleman from 
Colorado, for 5 minutes.
    Mr. Perlmutter. Thank you, Madam Chair.
    Mr. Hawley, it is nice to meet you in person.
    And, first, I would like to thank you and TSA for 
responding to some questions I had concerning an examination by 
the Red Team conducted at the Denver International Airport. I 
do want to say that you were very responsive, as were people 
within your organization, in getting back to me. So thank you.
    Mr. Hawley. Yes, sir.
    Mr. Perlmutter. But I do want to dig a little deeper into 
that whole kind of approach. And now I have had an opportunity 
to meet with Red Team members, to talk to you about this a 
little bit, to go out to the Denver International Airport. And 
the issue was that the airport did not do well on an 
examination, in effect, by a team of your investigators, your 
experts who kind of probed for holes in the system.
    After having met with everyone, it seemed to me that the 
electronics did a pretty good job. It was more of a personnel 
kind of an issue. And in Colorado, if I am not mistaken, we 
have gone from about 1,100 screeners 3 or 4 years ago, we are 
now down into the neighborhood of about 700 screeners, and we 
have many, many, many more passengers going through that 
airport. And I am just wondering if we are taxing our personnel 
in a way that doesn't enhance our security.
    And if you could comment on that, I would appreciate it.
    Mr. Hawley. Sure. Thank you, and I think you are raising a 
very important issue.
    As you know, IED detection is our number one priority at 
the passenger checkpoint, and it is, by far, the thing we spend 
the most time on. And the Red Team testing you mentioned is 
directed at the people, because we already know what the 
machines can do. We have taken the labs; we know exactly what 
they can do. So what we need to test and probe is what is the 
human factor, how do we better train, how do we better test?
    So we send inspectors out there who know the entire system, 
know the vulnerabilities, and they probe those vulnerabilities 
to understand what are the human factors we can add that would 
cover for machine vulnerabilities. And that is an ongoing 
process, as you know.
    As to the number of people, it is always a tough management 
job to get the right number of people, and we have been able 
with--and, frankly, I have to give credit to our officers for 
improving their own effectiveness and efficiency in cutting 
down absences, working with us to reduce injuries, and some of 
the human resource things have enabled us to generate screening 
capacity by fewer people leaving and more training, things like 
that.
    So we look at flight by flight what the TSO requirement is. 
We did build in the ADASP program, I mentioned earlier, and I 
think, as we noted last summer, Denver was supposed to be a big 
disaster in Memorial Day and over the holidays, Labor Day and 
Thanksgiving, frankly. And we stepped up, and when we had the 
snow in December, as you know, we flew in people from around 
the country to keep Denver fluid.
    So my commitment to you and the people of Denver and the 
city of Denver is to keep the airport fluid, effective and not 
have security be a barrier toward the purpose of the airport.
    Mr. Perlmutter. And I appreciate that, and, I guess, I 
think, the tension, and you have described the tension, the 
tension is between moving people through, getting them on their 
plane, but also making sure that we have proper security.
    And I understand this tension. And I guess what I am saying 
is your organization--there is a point in any organization, 
business or otherwise, where you can hit efficiency and then 
you cut to the bone, and when you cut to the bone, you screw up 
the mission. And my warning to you is that you are at the bone, 
and you may not think so, but just my rump opinion, my 
observation is you are close, if you are not there.
    The other thing I would say, and I have some concern, is 
you try to meet the rush hours, the morning rush hour, the 
evening rush hour and then it ends up in, kind of, the split 
shifts or you are looking at hiring part-time folks. And with 
this particular security issue, I am concerned about that, 
whether or not you are going to get the kind of people who will 
be devoted to the agency, be long-term employees who will do a 
good job. That is just my word of advice.
    And, Madam Chair, I will yield back.
    Thank you.
    Ms. Jackson Lee. We thank the distinguished gentleman.
    And I am now pleased to yield 5 minutes to the 
distinguished gentlelady from New York, Ms. Clarke, who has a 
few large airports in her area, New York City, Brooklyn.
    Ms. Clarke. Thank you so very much, Madam Chair.
    After the attacks on New York and Washington, D.C., on 9/
11, the American people had the expectation that the government 
would ensure that such a situation could never happen again. 
Congress reacted by passing a variety of reforms aimed at 
preventing airline passengers from carrying anything on board a 
plane that can threaten lives. However, recent events that have 
occurred at airports all over America have convinced me that 
not nearly enough is being done to prevent harm coming from 
airport workers.
    While the vast majority of airport and airline employees 
are honest, hardworking people, there are inevitably a few 
individuals that can and may view working at an airport as a 
way of getting around screening. This is a major vulnerability, 
and I think we have all acknowledged that.
    I live in Brooklyn and represent a large district in 
Brooklyn, which is under the busiest air corridor in the 
country. There are three very large airports within just a few 
miles of my district, and there is no reason why we should not 
do everything possible to protect those who fly and those on 
the ground.
    If 100 percent screening of airport workers can be 
accomplished, I see no reason why we should not do this.
    Secretary Hawley, it is good to see you once again, and I 
know that these are really complex issues that you are having 
to deal with here, but if Heathrow and Miami International 
Airport and other airports have successfully implemented 100 
percent worker screening with success, why wouldn't it work 
systemwide?
    Mr. Hawley. I think the type of screening for passengers is 
of a different nature given the purpose of passenger screening 
is to make sure that objects that can be used to have a 
terrorist attack don't get onto a plane; whereas, it is a very 
different thing in the secure area of a working factory, 
basically, where you have all the chemicals that you could 
imagine, tools, lots of things, not to mention the aircraft 
itself.
    So I believe from a security perspective, it is more 
important to really be sure of who these people are, have the 
training--and I know we have talked of this in the mass transit 
environment, but it is exactly the same issue of increase the 
training and the ability to, as you said to me, once you see 
something and say something, who do you tell it to and what do 
you do, but to have that worked into the airport environment as 
well.
    And I think that is an immediate, effective security 
measure that is worth more to us in the flying public than 
trying to figure out which screwdriver--figuring out what every 
duty is for everybody working there. I think there is always a 
component of checking physically when they come in, and we are 
happy to work with the committee on pilots to achieve that.
    Ms. Clarke. Yes, because you mentioned in your testimony 
here today about the sterile environment versus the non-sterile 
environment. I think the emphasis coming from this subcommittee 
is that we focus in on that non-sterile environment and create 
as many opportunities in that environment to deal with the 
whole issue of who is there, why they are there and what 
constructs can come from it.
    And I don't know whether there has been an analysis or an 
assessment or even a pilot that begins to get at these answers, 
but I would suggest to you that it is going to be important 
from so many different perspectives.
    I mean, we don't know under what circumstances someone 
becomes psychotic, we don't know what drives people to do the 
things that they do. We look at international terrorism 
oftentimes as the major threat, but we are finding more and 
more, as we found, unfortunately, this week, that you may have 
a troubled individual that shows up to work, recognizes they 
have the capability to do something demonstrative in terms of 
destruction, and we are unable to catch it, because we haven't 
created an environment that would disrupt something like that.
    You discuss the possibility of using a biometric card. 
Other DHS programs, such as US-VISIT has attempted to make use 
of biometric data on a large scale but have found it highly 
complicated and difficult, which has often led to failure.
    How difficult do you feel it would be to implement such a 
program for airport workers compared with using existing 
technology to screen them, and how long do you feel it would 
take to implement this in comparison with how long it would 
take to implement screening technologies similar to what is 
used on passengers?
    Mr. Hawley. On the issue of observing someone with erratic 
behavior, at the checkpoint, if we have got magnetometers, that 
is not going to pick it up. But the behavior observation and 
the training, that is one thing we have learned this week, is 
that there are signs if you are looking for them and prepared 
to act. So we are in full subscription with integrating the 
behavior observation to pick up both the foreign terrorist as 
well as anybody who would do otherwise harm.
    And on the biometric, as everybody knows, that is a very 
complicated technology, and we are breaking new ground at DHS 
with these programs, and the transportation worker identity 
credential, which we are doing in the maritime environment, is 
breaking new ground that we can use the data from that to use 
in the airport environment. And that is what gives me the 
optimism to think that we can move forward.
    And there have been some standards of interoperability done 
in the airport community, already established, like in 
Registered Traveler. So we are in the ballpark. I think that is 
the one that is the furthest out of the measures that we are 
talking about, and what in my calendar is to figure out in the 
4-to 6-month period what the parameters are and the specs and 
this is what it is and then figure what that costs.
    And it is critical--I think you raised an excellent point--
it is critical we not go to gold-plated, that we go to 
something that is effective, gets the job done and can be 
quickly deployable.
    Ms. Clarke. Thank you very much, Secretary.
    Thank you, Madam Chair.
    Ms. Jackson Lee. Let me thank you, Mr. Hawley, for your 
attention to these matters. Certainly, I think together we have 
a collective commitment to ensuring the safety of all of our 
airports. I have mentioned, though, the jurisdiction in this 
committee may go even beyond TSA, even questions about general 
aviation we must address.
    I leave you simply, as I bring forward the second panel, 
one, I think you will find a theme in this larger committee and 
the subcommittee a great concern for our employees, both in 
terms of training, in terms of security, whether it be those 
who work in the airports or whether it be our pilots and flight 
attendants. We will be looking forthwith on added training 
measures for both pilots and flight attendants. And so we are 
equally attendant to our, if you will, core of workers. We 
thank them for their service, but we know there have been 
breaches.
    And so I think the concern is, as I ask for a sense of 
urgency from the agency as we look at legislation this coming 
week, be reminded that during the breaches our airport 
employees cut across very serious products, be they weapons, be 
they chemicals or other manner that could be used to create 
havoc. It is in the breach, it is in the lapse that comes 
tragedy and disaster. We don't have those excuses.
    So I thank you and would look forward to working with TSA 
to ensure that we have a sense of urgency in this committee and 
a sense of urgency to be able to create the right mix of 
legislation and policy that is moved as quickly as possible in 
order for us to leap across the breach and to close the breach. 
I think that is an enormously important challenge that we have.
    Thank you for your testimony.
    The members of the subcommittee may have additional 
questions for Administrator Hawley. We will ask you to respond 
to those questions expeditiously, Administrator, in writing, 
and at this time, the committee shall move to the next panel.
    Call that a little bit of musical chairs. You did that very 
well.
    [Laughter.]
    At this time, I would like to welcome the second panel of 
witnesses.
    Our first witness will be Ms. Lauren Stover, assistant 
aviation director, Security and Communications for Miami-Dade 
Aviation Department. In this capacity, Ms. Stover handles all 
communications responsibilities for the department and assumed 
a key role in the management of airport security.
    A 23-year veteran of Miami-Dade County government, she 
returned to the Miami-Dade Aviation Department after a stint in 
a leadership role within the U.S. Department of Homeland 
Security.
    Our second witness is Greg Principato, president of 
Airports Council International--we thank you for being here--
North America. Mr. Principato oversees the leading association 
of airports and airport-related businesses in North America, 
which enplane nearly all of domestic and international airline 
passenger and cargo traffic on the continent. And I am always 
reminded by my director, Rick Vacar of the importance of ACI. I 
think I have been attending with him for a number of years.
    So we welcome you again.
    The final witness of this panel is Mr. William E. Holden, 
senior vice president of operations, Covenant Homeland Security 
Solutions. Before joining CHSS, Mr. Holden spent 30 years in 
civil aviation, holding management positions of various levels 
in Pittsburgh, Philadelphia, Newark, Miami, Boston, LaGuardia 
and Washington National Airports. He also held director-level 
positions in passenger services with Pan American and Northwest 
Airlines.
    Let me indicate to the witnesses that we will proceed with 
this hearing. You may see the distinguished gentlelady from New 
York to take the gavel for a moment. We are in several 
committees at once, votes on the floor; however, I, as the 
chair, will return and be able to engage with you.
    So without objection, the witnesses' full statements will 
be inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Ms. Stover from Miami-Dade 
Aviation Department.
    And we welcome you to Washington.

  STATEMENT OF LAUREN STOVER, ASSISTANT AVIATION DIRECTOR FOR 
  SECURITY AND COMMUNICATIONS, MIAMI-DADE AVIATION DEPARTMENT

    Ms. Stover. Thank you very much.
    Good morning, Madam Chairwoman, Ranking Member Lungren and 
members of the subcommittee. I thank you for having a hearing 
on this very important issue of screening airport employees.
    As you know, since 1999, we have been performing security 
screening of all employees working in secure and restricted 
areas of Miami International Airport. This practice grew out of 
necessity, resulting from a 2-year undercover drug smuggling 
operation, not unlike the one that occurred Orlando 
International Airport.
    In response, MIA implemented a comprehensive security 
enhancement program including, most notably, the screening of 
all employees with access to secure areas of the airport. We 
began conducting criminal background and warrants checks for 
employees working at the airport needing access to these 
restricted areas. We hired more security staff and, in short, 
dramatically beefed up our overall security program such that 
in many ways MIA was ahead of its time in terms of security 
measures that now, in the post-9/11 era, are completely 
applicable to neutralizing a potential terrorist threat.
    The overall issue we had to address in 1999, and what 
Congress will be deliberating this year, is how to keep airport 
employees from using their access to restricted areas as a 
means to conduct illegal activities. At MIA, we have 30,000 
people working at the airport, 27,000 of whom have access to 
restricted areas.
    One hundred percent of the individuals accessing the secure 
area through the terminal are screened by the magnetometer, and 
their personal items are subject to X-ray inspection. Employees 
are also required to log in and log out throughout our access 
control system when beginning and ending their shifts.
    We contract with a private security firm to operate our 
four employee-only screening checkpoints for personnel that 
work in the aircraft ramp area. In the terminal area, working 
closely with our air carriers and employee unions, we 
incrementally reduced the 34 unmanned employee entrance areas 
to the four that we have today.
    We have implemented security directives that specify the 
types of items employees can carry with them into SITA areas. 
For instance, many employees carry tools that are necessary for 
work but otherwise would not be allowed through a standard 
passenger checkpoint. Employees who work in the sterile areas 
within the terminal that are beyond the passenger security 
screening checkpoint are screened by TSA.
    With background checks and comprehensive security measures, 
including behavior pattern recognition, which I will discuss 
later, we have a layered approach to security, and we 
ultimately know who these people are and what they are doing.
    We spend about $2.5 million each year on the security guard 
services to implement this employee screening program. As I 
said before, our security program is a multilayered approach 
and we work closely with our local law enforcement and with our 
federal partners in the Department of Homeland Security, as 
well as the U.S. Department of Justice, such as what we are 
doing currently right now in Miami, as I speak to you today.
    We regularly need and exchange information. Also conducts 
sweeps with these law enforcement partners to ensure that 
employees are not engaged in criminal activity.
    In addition to conducting comprehensive background checks, 
interagency sweeps and screening employees with access to 
secure areas, another security layer that we have at MIA that I 
am extremely proud of because we are a leader in this area, is 
an airport-wide behavioral analysis program.
    The behavior pattern recognition, or BPR, as it is termed, 
is a security technique originated by Rafi Ron, who is the 
former security director for Ben Gurion, an airport in Tel 
Aviv, whereby people are trained to detect suspicious 
individuals based on behavior rather than ethnic background. To 
date, more than 1,500 employees at MIA have received the 
training, and sessions will continue with the goal of training 
all 30,000 employees.
    As you look at ways to improve security at our nation's 
airports, specifically through employee screening, I would like 
to say that all airports are truly different with respect to 
their configuration, their security programs and the threat 
analysis. A one-size-fits-all solution is not appropriate.
    A federal approach to employee screening must take into 
consideration that most airports are financially unable to 
dramatically increase expenditures any more than what they have 
done since 9/11. In fact, most airports already are dealing 
with paying for unfunded federal mandates, such as the inline 
explosive detection system that we are currently installing at 
MIA. Airport facilities differ and the way employees get to 
their jobs differ, but there is common ground. And with input 
from airports, we can assist in crafting airport employee 
screening legislation to better secure our nation's airports 
and passengers.
    I would like to leave you with some thoughts from our 
perspective on employee screening. First, any national program 
that mandates employee screening must be properly resourced and 
funded. Second, different standards must be established. The 
protocols and standards that are appropriate screening are 
different than those appropriate for passenger screening.
    Third, we believe the emphasis should be on stopping ill-
intended individuals. And, finally, a layered approach to 
security is our best bet from those who would do us harm.
    I thank you for the privilege of sharing our experiences 
and thoughts, and I look forward to answering your questions. 
And thank you for having me here today.
    [The statement of Ms. Stover follows:]

                  Prepared Statement of Lauren Stover

    Good morning Madame Chairman, Ranking Member Lungren and Members of 
the Subcommittee. I thank you for having a hearing on this very 
important issue of screening airport employees. As you know, since 
1999, we have been performing security screening of all employees 
working in secure and restricted areas of Miami International Airport. 
This practice grew out of necessity as we discovered an organized 
narcotics smuggling operation not unlike the recent incident that 
occurred at Orlando International Airport.
    In response to the drug smuggling activities that involved airline 
employees, a comprehensive security enhancement program, including most 
notably the screening of all employees with access to secure areas of 
the airport, was implemented at MIA.
    We began conducting criminal background and warrants checks for 
employees working at the airport needing access to secure and 
restricted areas. We hired more security staff and, in short, 
dramatically beefed up our overall security program such that in many 
ways, MIA was ahead of its time in terms of security measures that now, 
in the post 9-11 era, are completely applicable to neutralizing a 
potential terrorist threat.
    The overall issue we had to address in 1999, and what Congress will 
be deliberating this year, is how to keep airport employees from using 
their access to restricted areas as a means to conduct illegal 
activities. First, let me say as an airport employee for many years, 
most of us are good, hardworking people, but a few, with ill 
intentions, can do a lot of damage. In conducting employee screening, 
we are reducing the ``insider threat'' which is a critical element of 
our security program.
    Let me briefly describe who these airport employees are. There are 
airport employees such as myself that work for the operator of the 
airport, which in most cases is the local government or an airport 
authority. The vast majority of people who work at the airport, 
however, work for airlines, vendors and tenants, many of whom have 
access to restricted areas in order to perform their duties.
    At MIA, we have 30,000 people working at the airport. My security 
department manages the credentialing of these employees with 
identification media/or ID badges. In the secure areas of the airport, 
including the SIDA area--or Security Identification Display Area--
employees must always have on visible display the ID media issued by my 
security division at the airport. All airport employees are trained to 
challenge anyone not displaying a proper ID in the SIDA.
    Criminal History Background Checks are conducted on all employees 
who have a need to access secure areas. We color-code our ID badges 
which helps anyone be able to immediately identify the specific area 
where an employee will work, such as on the airfield or inside the 
terminal beyond the security checkpoint, etc. At MIA, 100% of the 
individuals accessing the secure area through the terminal are screened 
by magnetometer (or walk through metal detector) and their personal 
items are subjected to x-ray inspection. Employees are also required to 
log-in and log-out through our access control system when beginning and 
ending their shifts.
    We contract with a private security firm to operate our four 
employee-only screening checkpoints for personnel that work in the ramp 
area where the aircraft are positioned at gates connected to the 
terminal. These are the baggage handlers, maintenance personnel and 
other employees that work directly on airplanes and around the 
airfield. In the terminal area, working closely with our air carrier 
and employee unions, we incrementally reduced the 34 unmanned employee 
entrance areas to the four we have today. We have implemented security 
directives that specify the types of items employees can carry with 
them into SIDA areas. For instance, many employees carry tools that are 
necessary for work but otherwise would not be allowed through a 
standard passenger checkpoint. Employees who work in the secure areas 
within the terminal that are beyond the passenger security checkpoint 
are screened at the passenger security checkpoint by TSA.
    With background checks and comprehensive security measures 
including Behavioral Pattern Recognition which I will discuss later, we 
have a layered approach to security and we ultimately know who these 
people are and what they are doing.
    We spend about $2.5 million dollars each year to implement this 
employee screening program at MIA. As I said before, our security 
program is multi-layered, and we work closely with our local law 
enforcement--the Miami-Dade Police Department--as well as with our 
federal partners in DHS--TSA, Immigration and Customs Enforcement, and 
Customs and Border Protection as well as the U.S. Department of 
Justice, the FBI and the Joint Terrorist Task Force. We make a point to 
regularly meet and exchange information in order to allow 
investigations to proceed without interference and to continue to 
monitor activity in securing the airport. We also regularly conduct 
sweeps with these law enforcement partners and our canine teams to 
ensure employees are not engaged in criminal activity.
    In addition to conducting comprehensive background checks, inter-
agency sweeps and screening employees with access to secure areas, 
another security layer that we have at MIA that I am extremely proud of 
because we are a leader in this area is an airport-wide behavioral 
analysis program. Behavior Pattern Recognition, or BPR, is a security 
technique originated by Rafi Ron, the former security director for Ben 
Gurion Airport in Tel Aviv, where people are trained to detect 
suspicious individuals based on behavior rather than ethnicity.
    To date, more than 1,500 employees at MIA have received the 
training, and training sessions will continue over the next two years 
with the goal of training all 30,000 employees at MIA. BPR will be 
permanently embedded into the fiber of the airport's security program, 
and BPR training will be required for employees renewing their airport 
ID badges. In March 2007, MIA was the first airport to host a national 
BPR training session for airport law enforcement officers.
    As you look at ways to improve security at our Nation's airports, 
specifically through employee screening, I would like to say that all 
airports are truly different with respect to their configuration, 
security and threat analysis. A one-size fits all solution is not 
appropriate. A federal approach to employee screening must take into 
consideration that most airports are financially unable to dramatically 
increase security expenditures any more than what they have done since 
9/11. In fact, most airports already are dealing with paying for 
unfunded federal mandates such as the in-line Explosives Detection 
System we are installing at MIA. Given our financial constraints, we 
have been forced to defer other capital projects in order to fund our 
North Terminal EDS project. To date, TSA has not committed funding.
    Airport facilities differ and the way employees get to their jobs 
differ, but there is common ground and with input from airports, we can 
assist in crafting an airport employee screening legislation to better 
secure our Nation's airports and passengers.
    I would like to leave you with some thoughts from our perspective 
on employee screening. First, any national program that mandates 
employee screening must be properly resourced and funded. Second, 
different standards must be established. The protocols and standards 
that are appropriate for employee screening are different than those 
that are appropriate for passenger screening. Third, we believe the 
emphasis should be on stopping ill-intended individuals from accessing 
the secure area. And, finally, a layered approach to security is our 
best defense from those who would do us harm.
    I thank you for the privilege of sharing our experiences and 
thoughts and look forward to answering your questions.

    Ms. Jackson Lee. Thank you very much for your testimony.
    I now would like to recognize Mr. Holden with Covenant--I 
have moved ahead. I would like to recognize Mr. Principato, 
with ACI, to summarize his statement for 5 minutes.
    Thank you.

   STATEMENT OF GREG PRINCIPATO, PRESIDENT, AIRPORTS COUNCIL 
                  INTERNATIONAL-NORTH AMERICA

    Mr. Principato. Thank you, Chairwoman Jackson Lee, Ranking 
Member Lungren and members of the subcommittee. Thank you for 
the invitation to appear today. I am here to offer the views of 
America's airport security and on improvements to enhance the 
systems currently in place.
    As president of Airport Council International-North 
America, I am testifying today on behalf of the local, regional 
and state authorities that own and operate commercial service 
airports. As has already been stated by the chairwoman, our 
member airports enplane nearly all of the domestic and 
international and passenger cargo traffic in North America.
    Nearly 400 aviation-related businesses are also members of 
ACI-North America.
    Madam Chairwoman, we commend you for holding this hearing 
today. Each day, airports work to ensure that our facilities 
are safe and secure for our passengers and for our employees. 
To this end, airports partner with airlines, tenants, TSA and 
federal and state and local law enforcement to maintain and 
develop a comprehensive layered security system that can 
quickly respond to new and evolving threats.
    A critical part of this wide-ranging structure is ensuring 
that individuals with access to secure areas are sprained as 
part of the risk-based security regime that makes the best use 
of TSA and airport resources.
    Before additional security measures are mandated, it is 
important to understand the multilayered system currently in 
place for individuals with access to secured areas at airports. 
Airport, airline or other tenant employees seeking unescorted 
access privileges in the secured area of airports undergo a 
finger-print based FBI criminal history record check. These 
individual are continually checked against federal terrorist 
watch lists.
    In addition, TSA conducts a security threat assessment to 
verify the individual's identity, employment eligibility and 
citizenship status.
    Access control systems are also an important part in 
ensuring airport security. These systems range from key or 
cipher locks to sophisticated, fully automated systems 
utilizing biometric data. Most access control systems are also 
supplemented by closed-circuit television to allow monitoring 
of the critical areas from a centralized control room, audible 
alarms to enunciate breaches and patrols by public safety and 
law enforcement personnel.
    Vehicles and equipment seeking access to these areas are 
inspected by local law enforcement or specially trained public 
safety personnel. Some new generation access control systems 
within the secure areas.
    Airport, airline and tenant employees undergo security 
training specifically tailored to the airport. Additionally, 
the TSA Aviation Direct Access Screening Program, ADASP, 
subjects employees and their property to random screening as 
they enter the secured area. Anywhere on the airport, at any 
time, employees, including airport directors, know they may 
encounter TSA screening.
    Now, as was discussed before by Administrator Hawley, ACI-
North America has been working with TSA, with the American 
Association of Airport Executives and our airport members to 
develop programs for even more robust employee screening. The 
program under discussion would not replicate the stationary 
process currently in place for passengers and their baggage, as 
the work environment for airport workers has already been 
discussed, presents far different challenge, security 
challenges, and requires measures targeted to meet those 
challenges.
    It includes the use of behavior recognition techniques, 
targeted physical inspections, enhanced employee training to 
raise awareness of suspicious behavior, development of a 
certified employee program, expansion of the use of biometric 
access controls and deployment of additional airport 
surveillance technology.
    TSA, airports, airlines and employee representatives are 
working to refine the specific procedures that would be 
incorporated into the pilot program. We believe that work can 
be completed in about the next 90 days or so. ACI-North America 
is recommending that the pilot program using these techniques 
be conducted for at least 180 days to assess the improvement in 
aviation security, the impact on airport and airline operations 
and the cost of the program.
    Assuming Congress appropriates the necessary funds to 
implement the plan, further deployment could then occur.
    This approach would also incorporate the latest 
intelligence information to allow more nimble and effective 
security measures, which could be modified quickly to address 
new and emerging threats. The pilot would also allow different 
combinations of programs and technologies to be evaluated to 
determine which provide the greatest security benefits and 
which are appropriate for airports of varying sizes and 
configurations.
    I want to again emphasize that airports are committed to 
working with you and with Congress to enhance the already 
effective airport security system with risk-based measures. We 
believe that a risk-based program, developed collaboratively by 
airports, airlines and TSA, will enhance the security of the 
traveling public by strengthening employee screening while 
appropriately using technologies and resources across the 
industry.
    The members of ACI-North America thank you for inviting me 
to testify and we look forward to working with you, and I look 
forward to your questions.
    Thank you.
    [The statement of Mr. Principato follows:]

                 Prepared Statement of Greg Principato

    Chairwoman Jackson-Lee, Ranking Member Lungren, and members of the 
subcommittee, thank you for the invitation to appear before the 
subcommittee today to offer the views of America's airports on airport 
security and improvements to enhance the systems currently in place. As 
the President of Airports Council International--North America (ACI-
NA), I am testifying today on behalf of the local, regional, and state 
governing bodies that own and operate commercial service airports in 
the United States and Canada. ACI-NA member airports enplane more than 
95 percent of the domestic and virtually all the international airline 
passenger and cargo traffic in North America. Nearly 400 aviation-
related businesses are also members of ACI-NA.
    Madam Chairwoman, we commend you for holding this important 
hearing. Each day, airports work to ensure that our facilities are safe 
and secure for passengers and employees. To this end, airports partner 
with airlines, tenants, the Transportation Security Administration 
(TSA), and Federal, State, and local law enforcement to maintain and 
develop a comprehensive, layered security system that can quickly 
respond to new and evolving threats. A critical part of this wide-
ranging structure is ensuring that individuals with access to secure 
areas are screened as part of a risk-based security regime that makes 
the best use of TSA and airport resources.
    Before additional security measures are mandated it is important to 
understand the multi-layered system currently in place for individuals 
with access to the secured areas at airports. First, persons employed 
by the airport, airlines or other tenants seeking unescorted access 
privileges within the controlled areas of airports must provide the 
airport sponsor with two forms of government-issued photo 
identification, be authorized to work in the United States of America, 
and undergo a fingerprint-based FBI criminal history records check to 
ensure that they have not committed any of an explicit list of crimes 
designated by Congress during the prior 10 years.
    Some airports, with TSA approval, have implemented more rigorous 
background check standards, verifying information for the past 20 
years. Further, at the time of initial employment and throughout the 
period where access privileges are authorized, these individuals are 
continually checked against the federal terrorist watch lists developed 
by TSA, the Department of Homeland Security (DHS) and the intelligence 
agencies. In addition to the criminal history records verification and 
terrorist watch list checks, the TSA conducts a security threat 
assessment (STA) to verify the individual's identity, employment 
eligibility and citizenship status.
    Access control systems are also an important component in ensuring 
airport security. These systems have been are in place for many years 
at airports and range from key or cipher locks to sophisticated, fully 
automated systems utilizing biometric data. The components provide 
security beginning at the public area through the security 
identification display area (SIDA). All certificated airports designate 
these zones in their Airport Security Plans (ASPs) and implement 
measures to restrict access to those with an operational need to enter 
the area. Airports must also immediately report to TSA any change in an 
individual's badge status to ensure that individual's access to the 
secured areas of airports will be revoked.
    Most access control systems are also supplemented by closed circuit 
television to allow monitoring of the critical areas from a centralized 
control room, audible alarms to annunciate breaches, and patrols by 
public safety and law enforcement personnel. Vehicles and equipment 
seeking access to these areas are inspected by local law enforcement or 
specially trained public safety personnel. Some new generation access 
control systems allow for tracking of authorized vehicles within the 
secure areas.
    Airport, airline and tenant employees undergo initial and recurrent 
security training, specifically tailored to the airport. The training 
emphasized the individual's responsibilities and duties while working 
in the secured area of the airport, including the importance of 
challenge procedures and quickly contacting airport authorities of 
unusual activities or possible threats.
    Additionally, the TSA Aviation Direct Access Screening Program 
(ADASP) subjects employees and their property to random screening as 
they enter the secured area. It is well established that random 
security checks provide an effective deterrent to both criminal and 
terrorist activities. Anywhere on the airport at any time, employees 
know they may encounter TSA screening. We believe that random checks 
under the ADASP make airport security unpredictable, thus making it 
difficult for terrorists to ascertain operational patterns that can be 
exploited.
    ACI-NA has been working with TSA, the American Association of 
Airport Executives and our airport members to develop programs for even 
more robust employee screening. The program under discussion would not 
replicate the stationary process currently in place for passengers and 
their baggage, as the work environment for airport workers has 
different security issues that must be addressed with measures targeted 
to meet those potential vulnerabilities. Instead, it includes the use 
of behavioral recognition techniques and interviews before employees 
enter the sterile and security areas, targeted physical inspections, 
enhanced employee training to raise awareness of suspicious behavior, 
development of a certified employee program, expansion of the use of 
biometric access controls and deployment of additional airport 
surveillance technology. ACI-NA recommends that a pilot program using 
these techniques be conducted for at least 180 days, to assess the 
improvement in aviation security, the impact on airport and airline 
operations and the costs of the program. Assuming Congress appropriates 
the necessary funds to implement the plan, a phased deployment of the 
program to the 452 commercial U.S. airports could then occur.
    Implementation of this six-point program would incorporate the 
latest intelligence information to allow more nimble and effective 
security measures, which could be modified quickly to address new and 
emerging threats. Such a program would also allow different 
combinations of programs and technologies to be evaluated to determine 
which provide the greatest security benefits and which are appropriate 
for airports of varying sizes and configurations.
    As you know, Miami International Airport and Orlando International 
Airport have already implemented a different approach for employee 
screening. We understand the circumstances which lead to these ACI-NA 
member airports establishing measures tailored to their unique 
environment and security challenges. ACI-NA supports the right of 
airports to exceed federal or state regulatory requirements if they 
believe the additional security procedures and/or equipment provide a 
benefit for their passengers and employees.
    I want to again emphasize that airports are committed to working 
with Congress to enhance the already effective airport security system 
with risk-based measures. We believe that a risk-based program, 
developed collaboratively by airports, airlines and TSA, will enhance 
the security of the traveling public by strengthening employee 
screening while appropriately using resources across the industry.
    The members of ACI-NA and I thank you for inviting me to testify 
today and we look forward to continuing to work with you on this 
important issue. I'll be pleased to address any questions you might 
have.

    Ms. Clarke. [Presiding.] Thank you for your testimony.
    And I now recognize Mr. Holden, with Covenant Homeland 
Security Solutions, to summarize his statement for 5 minutes.

   STATEMENT OF WILLIAM E. HOLDEN, SENIOR VICE PRESIDENT OF 
        OPERATIONS, COVENANT HOMELAND SECURITY SOLUTIONS

    Mr. Holden. Thank you. Ms. Clarke, ranking member of the 
subcommittee, I would like to thank you each of you for 
inviting me to participate in a hearing to discuss airport 
security.
    By way of background, Covenant Aviation Security was 
awarded a contract as part of a Transportation Security 
Screening Pilot Program on October 10, 2002. We are currently 
providing both passenger and baggage screening at San Francisco 
International Airport, a category X airport, and also at Sioux 
Falls Regional Airport, a category II airport.
    Covenant was the only private contractor to be awarded two 
airports during the pilot screening program.
    I would like to point out the compressed timelines under 
which the award was made on October 10 until staffing the 
checkpoints on November 19, 2002 and providing full trained 
screeners for checked baggage on January 1, 2003.
    Covenant was successful in meeting both of these federally 
mandated deadlines. Covenant successfully deployed over 1,100 
security screeners to all passenger checkpoints at San 
Francisco International Airport and Tupelo Regional Airport 
during the very brief 39-day transition period. Additionally, 
Covenant staffed all baggage checkpoints by January 1, 2003 for 
a total of 1,453 screeners hired, trained and deployed within 
the TSA-mandated timelines.
    Covenant was awarded screening operations at Sioux Falls in 
February 2006. Tupelo Regional Airport was awarded to Trinity 
Technology in May of 2006 as a small business set aside. 
Covenant provides management services for Trinity.
    The Covenant team offers extensive experience in airport 
operations, security and personnel management capable of 
providing the government cost effective and value added 
solutions.
    Currently, at both San Francisco International and the 
Sioux Falls Regional Airport, Covenant Aviation contract scope 
has been increased by the TSA to include Aviation Direct Access 
Screening Program, ADASP.
    ADASP screening entails the screening of airport personnel 
who have access to secure areas of the airport. Airport 
personnel having the appropriate credentials and access rights 
can enter into the airport sterile area without going through 
checkpoint security.
    Through the ADASP, airport personnel and their belongings 
are subject to rigorous screening standards to prevent the 
introduction of prohibited items into an airport's sterile 
area. The ADASP represents a significant step forward by the 
TSA to ensure the safety of the flying public.
    ADASP was implemented by TSA in 2007 and requires 
additional procedures to expand screening to include direct 
access points into the airport operations area, AOA. It is 
important to note that there is an extensive background check 
process for all airport community employees.
    ADASP is conducted on a random and unpredictable basis to 
accomplish the following: Look for improper ID media, ensure 
that all checked IDs do not show signs of tampering, look for 
non-visible airport ID media, ensure that prohibited items on 
the TSA prohibited list do not gain access to the AOA, and, 
five, check individuals and their accessible property entering 
direct areas other than checkpoint entries, resolving all 
alarms.
    The majority of all employees that work in the airport 
community and possess a badge issued by the security access for 
San Francisco International as well as their belongings go 
through the same screening process as the traveling public. 
They proceed through a walk-through metal detector and their 
personal or job-related possessions are screened by an X-ray 
machine. If there is an alarm of any kind they are subject to 
hand wanding, bag searches or a pat down of their possessions. 
They are subjected to the screening process every time they 
leave the sterile area and wish to re-enter.
    Employees in the airport community are airline employees, 
inclusive of management and flight crews, vendors working for 
the airlines or city employees. In San Francisco and Sioux 
Falls, the certified screeners that work for Covenant must go 
through the security check point each time they enter the 
sterile area.
    Covenant strongly supports the screening of all employees 
in accordance with the Aviation and Transportation Security Act 
of 2002. I stand for your questions.
    [The statement of Mr. Holden follows:]

                Prepared Statement of William E. Holden

    Chairwoman Jackson Lee, Ranking Member Lungren, Members of the 
Subcommittee on Transportation Security and Infrastructure Protection--
I would like to thank you for inviting me to participate in today's 
hearing to discuss Airport Security.

BACKGROUND
    Covenant Aviation Security was awarded a contract as part of the 
Transportation Security Administration's (TSA) Security Screening Pilot 
Program on October 10, 2002. We are currently providing both passenger 
and baggage screeners at San Francisco International Airport, a 
Category X airport, and Sioux Falls Regional Airport, a Category II 
airport. Covenant was the only private contractor to be awarded more 
than one airport under the Privatization Pilot Program (PP5). I would 
like to point out the compressed time frame from contract award on 
October 10, 2002, until staffing all checkpoints on November 19, 2002, 
and providing fully trained screeners for checked baggage on January 1, 
2003. Covenant Aviation was successful in meeting both of these 
federally mandated deadlines.
    Covenant successfully deployed over 1,100 security screeners to all 
passenger checkpoints at San Francisco International Airport (SFO) and 
Tupelo Regional Airport (TUP) during the very brief 39-day transition 
period (October 10, 2002--November 19, 2002). Additionally, Covenant 
staffed all baggage checkpoints by January 1, 2003 for a total of 1,453 
screeners hired, trained and deployed within the TSA-mandated 
timelines. Covenant was awarded screening operations at Sioux Falls 
Regional Airport in February 2006. Tupelo Regional Airport was awarded 
to Trinity Technology Group in May 2006 as a small business set aside 
contract with the TSA. Covenant provides management services for 
Trinity.
    The Covenant team offers extensive experience in airport 
operations, security and personnel management capable of providing the 
Government cost effective and value added solutions. Our company 
mission states our commitment to provide dedicated aviation security 
services for the safe and efficient movement of people and cargo within 
the United States and its territories. One benefit Covenant has 
capitalized on is the dedication and support we have received from the 
Airport Directors, Mr. John Martin of San Francisco, Mr. Terry Anderson 
of Tupelo and Mr. Mike Marnach of Sioux Falls.
    In addition, our collaborative relationships with the Federal 
Security Directors' in San Francisco, Mr. Ed Gomez and Mr. Mark Heisey 
in Sioux Falls, South Dakota have enabled us to provide exceptional 
service and is a contributing factor in successfully maintaining the 
mission focus. The ``Team SFO'' and ``Team FSD'' concept represents the 
joint efforts of Airport Management, the Federal Security Director 
including their staffs and Covenant. These relationships were built 
over time and a result of Covenant consistently demonstrating the 
ability to overcome challenges and supporting the TSA and its mission.

EMPLOYEE SCREENING
    At both San Francisco International and the Sioux Falls Regional 
Airport, Covenant Aviation Security's contract scope has been increased 
by the TSA to include Aviation Direct Access Screening Program (ADASP) 
screening. ADASP screening entails the screening of airport personnel 
who have access to secure areas of the airport. Airport personnel 
having the appropriate credentials and access rights can enter into the 
airport sterile area without going through checkpoint security. Through 
the ADASP, airport personnel and their belongings are subject to 
rigorous screening standards to prevent the introduction of prohibited 
items into an airport's sterile area. The ADASP represents a 
significant step forward by the TSA to ensure the safety of the flying 
public.''
    ADASP was implemented by TSA in 2007 and requires additional 
procedures to expand screening to include direct access points into the 
Air Operations Area (AOA). It is important to note that there is an 
extensive background check process for all airport community employees.
    ADASP is conducted on a random and unpredictable basis to 
accomplish the following:
        i. Look for improper ID media
        ii. Ensure that all checked ID's do not show signs of tampering
        iii. Look for non-visible airport ID media
        iv. Ensure that prohibited items on the TSA prohibited list do 
        not gain access to the AOA
        v. Check individuals and their accessible property entering 
        direct access areas other than check point entries, resolving 
        all alarms.
    The majority of all employees that work in the airport community 
and possess a badge issued by the Security Access Office for San 
Francisco International Airport (SFO) as well as their belongings go 
through the same screening process as the traveling public. They 
proceed through a walk through metal detector and their personal or job 
related possessions are screened by an x-ray machine. If there is an 
alarm of any kind they are subject to Hand Wanding, bag searches or a 
pat down of their person. They are subjected to the screening process 
every time they leave the sterile area and wish to re-enter.
    Employees in the airport community are airline employees (inclusive 
of management and flight crews), vendors working for the airlines or 
city/airport employees. In SFO and FSD the certified screeners that 
work for Covenant must go through the security check point each time 
they enter the sterile area.

CHALLENGES AND IMPLEMENTED SOLUTIONS
    Due to the fact the two airports we service are distinctly 
different (Category X and Category II) they bring individualized 
operational issues to the table. I will begin by discussing solutions 
we implemented in San Francisco and Sioux Falls.

STAFFING
    The current staffing level in San Francisco is 815 full time 
employees. The TSA authorized staffing level is 845. Covenant teamed 
with the FSD, Mr. Gomez and his staff, determined the required hours of 
operation by incorporating information collected on passenger 
throughput and passenger waiting time in order to ``right-size'' the 
screener workforce. Covenant has been successful in reducing the number 
of employees without jeopardizing the level of security, customer 
service levels or experiencing an increase in wait times.
    We currently have 84 part-time employees which provides Covenant 
the flexibility to schedule those individuals where needed in order to 
meet the demand. To my knowledge, we were the first airport to 
establish a part-time workforce.

    Sioux Falls is staffed with 32 full time employees and 4 part time 
employees.

SCREENING CONTROL CENTER
    The FSD, Airport Director and Covenant recognized the need for a 
Command and Control center for the entire airport. Due to the dispersed 
locations of the checkpoints and three separate terminals it became 
apparent for a communication system that provided a link to the TSA, 
airport staff and law enforcement officials.
    The Screening Control Center (SCC) concept of Command and Control 
was developed with the TSA SFO Executive Team and the SFO Airport 
Commission to provide a centralized resource to improve operating 
efficiencies of the screening workforce. The SCC is located in the 
Airport Communications Center and includes a Closed Circuit Television 
system (CCTV). The SCC is manned 24/7 in order to constantly monitor 
the operation of SFO's 39 checkpoint lanes and the queuing passengers 
at checkpoints.
    A major function of the SCC operators is to move screeners to 
checkpoint/ baggage workstations during `off-peak' hours to work in 
locations where additional screeners are needed. Additionally, the SCC 
takes calls reporting out-of-service Government Furnished Equipment 
(GFE) and oversees the dispatch of Siemens, Boeing and InVision 
technicians decreasing the downtime of essential screening equipment.
    Due to the success we had with the Screening Control Center in San 
Francisco we implemented it at Sioux Falls at no cost to the TSA or the 
airport.
SAFETY, ON-THE-JOB INJURIES (OJI) & WORKERS COMPENSATION CLAIMS
    Covenant, along with most airports, was experiencing a high number 
of Worker's Compensation Claims that resulted in significant amounts of 
money being paid out in claims. Covenant has taken steps to 
aggressively manage this issue. In early 2003, Covenant management 
initiated both a part-time screener job classification and a return-to-
work program for screeners who have been injured while performing their 
screener duties. Although they cannot return to full-time employment, 
they are available to work in a restricted duty capacity (jobs assigned 
by medical restrictions). Covenant, with FSD approval, has hired a 
Workers Compensation Specialist to review claims for cost containment 
and who manages the return-to-work program.

ATTENDANCE CONTROL CENTER (ACC)
    Covenant's absentee rates were fluctuating on a monthly basis and 
at one point went at high as 14.7%. The Covenant management team along 
with the guidance of the FSD, Mr. Gomez, knew we needed to get this 
issue under control. In May 2003, Covenant opened the Attendance 
Control Center and our absentee rate began to decrease almost 
immediately. Our absentee rate is 3.6%.
    The ACC is an innovation that provides a center of communication on 
current staffing levels at all checkpoints. The ACC works in 
conjunction with the SCC by reporting actual numbers of personnel at 
the start of each shift and compares them to the established schedule. 
The SCC in turn can efficiently reassign personnel to ensure that 
screening operations are maintained by staffing the areas most critical 
to operational continuity.
    Of particular note, Absent-Without-Leave (AWOL) has been 
significantly reduced due to management actions taken by Covenant in 
administering the Attendance and Disciplinary policies. The ACC assists 
in reviewing and addressing employee attendance performance through 
counseling or disciplining as appropriate. Having one central location 
performing this function ensures that applications of discipline for 
attendance infractions are consistent across all terminal checkpoint 
and baggage operations.

ASSESSMENT
    Covenant recognized the staffing deficiency occurring nationwide. 
In addition, Covenant could foresee the problems that would occur while 
waiting, possibly six months, for TSA's subcontractor, CPS to arrive 
and perform the assessments. During those six months, service levels 
would be compromised along with rising costs if the usage of overtime 
hours increased.
    With the assistance of the FSD, Covenant has developed a proven 
approach that was first demonstrated with the hiring of Baggage 
Handlers. Since then Covenant has conducted several assessments for the 
recruitment of part-time and full-time passenger and baggage screeners 
for San Francisco International Airport. The method is a phased 
approach including three phases (1) recruitment, (2) pre-screening and 
(3) assessment. Covenant is responsible for the entire assessment 
process. The percentage of candidates who will successfully meet the 
full assessment criteria is increased by validating minimum 
qualification criteria early in the selection process. Pre-screening 
candidates provides cost-efficient methodologies for ensuring expenses 
are not incurred for assessing unqualified candidates. Covenant uses 
actual screeners to assist in panel interviews with candidates so that 
operational experience is brought to bear in assessing potential 
employees.

TRAINING
    The airport screening environment presents multiple challenges to 
any training program due in large part to its 24/7 operation and large 
number of screeners who work various shifts, days of the week, and 
terminals, yet still must receive the same consistent information and 
direction that greatly impact security and passenger safety.
    Covenant developed a Training Academy that includes an onsite 
computer learning lab that serves as the ``hub'' of all training and 
certification activities. The lab consists of 55 stand-alone PC 
computers equipped with CD-ROM and headset. Initially, the computers 
were used primarily for image recognition training--three hours per 
week. Now screeners have a library of CD-ROMs to choose from that 
include hidden weapons, screening of footwear, hand-wanding, full body 
pat down review, back injury prevention, harassment-free workplace, and 
Hazmat guidelines. In addition, operational equipment can be dispatched 
to the lab for hands-on training related to operational testing and 
weekly/monthly maintenance procedures. The Computer Learning Lab has 
become an integral part of the screener's daily activities--right along 
side the screening of passengers and checked baggage.

HUMAN RESOURCES
    Covenant recognizes the problems federally run airports are 
experiencing in terms of human resource functions. At times these 
processes are very confusing and time consuming due to the excessive 
layers involved in the TSA process.
    Covenant realizes the importance of communicating information 
regarding benefits, policies, and resources available to our employees 
to maintain positive employee morale. By having a local human resource 
department Covenant is able to service the employees better. For 
example, Covenant has the flexibility to promote individuals based on 
performance and on the other hand can remove an individual from a 
position if required. Covenant can handle simple matters such as a pay 
discrepancy the same day. The flexibility has allowed us to implement 
such employee programs as an Employee Assistance Center, Employee 
Relations Management system, recognition programs and alternative work 
schedules without waiting for approval from TSA headquarters.
    Having Covenant provide human resource functions allow the FSD to 
focus on his main objective--security, rather than trying to resolve 
personnel issues.

BEST PRACTICES (SFO)
    Covenant Aviation Security (CAS) is contracted to perform the 
Aviation Transportation Security Act screening procedures. While 
fulfilling all of the requirements of the contract and the TSA Standard 
Operating Procedures (SOP) we have developed some ``best practices'' 
that have elevated SFO's performance.
        <bullet> CAS runs a test every 30 minutes at every operational 
        screening lane of randomly chosen prohibited items (IED's-
        Improvised Explosive Devices)
        <bullet> CAS exceeds the hours required for all computer based 
        training, OLC (on-line computer) and TRX (image). CAS has 
        installed computers close to check points and in break areas so 
        employees can readily access all computer based programs.
        <bullet> CAS has supplied each check point with ``image 
        books''. The image books are x-ray pictures of actual bags with 
        every day items and some IED and prohibited item materials. The 
        front of the page is the images generated, the back of the page 
        clearly defines the images.
        <bullet> CAS contracts with companies that covertly try to 
        breach security by having prohibited items or IED parts in 
        their bags or on their person. What separates our testing is 
        CAS makes the testing difficult. The better the score means 
        that we need to make the tests harder. CAS provides a monetary 
        incentive when employees ``catch'' prohibited items or IED 
        related materials.
        <bullet> CAS has a pro-active Dual Function Screener (DFS) 
        program. DFS' advantages are improved morale (employees are 
        scheduled for two weeks in baggage and two weeks at check 
        points), heightened skills (because they must know and test in 
        both areas) and operational improvements. If there is an 
        operational problem the DFS program gives CAS flexibility at 
        reacting to security issues.
    Best practices that are applicable will be implemented in Sioux 
Falls.

CONCLUSION
    The FSD oversight and partnership we've developed has played a 
major role in the successful operation at both San Francisco and Sioux 
Falls airports. The FSDs, Mr. Gomez and Mr. Mark Heisey and their 
staffs require Covenant to justify/explain the following metrics on a 
weekly basis: overtime, attendance, OJI's, attrition and wait times for 
passengers. Recent statistics show that SFO metrics surpass other 
Category X airports in the Western Area in the areas of attendance, 
overtime and attrition. The guiding principle for Covenant management 
is ``If we cannot measure it, we cannot manage it.''
    Covenant strongly supports the screening of all employees in 
accordance with the Aviation and Transportation Security Act of 2002, 
Section 44903 of title 49, United States Code.

    Ms. Clarke. I thank all the witnesses for their testimony.
    I will remind each member that she or he will have 5 
minutes to question the second panel.
    I now recognize myself for questions.
    My question is directed to Ms. Stover.
    Have you had the opportunity to demonstrate your operations 
and screening techniques for officials at other airports? I got 
from your testimony that you really want to practice 
specifically for that airport environment; it is not a one-
size-fits-all. But there are certainly some best practices that 
you have established that can be adapted to each airport 
environment that exists, particularly in the areas--that are 
similar.
    Has there been any interest from other airports?
    Ms. Stover. Yes, Ms. Clarke. We have had Orlando Airport 
come visit us recently, we have had TSA come down and see our 
operations, and we have had Metropolitan Washington Airports 
Authority come.
    I have offered to the industry, and I do that through this 
forum today, that any airports that are interested in viewing 
our operations we would certainly be happy to host them.
    Again, we do feel that there needs to be a layered approach 
to this, working with access controls. We have the ability to 
be able to restrict the access through the encoding of our ID 
badges. Recently, I have instituted a call for data on how many 
doors are being used and those that are not being used, I am 
shutting down and locking down. My fire access doors I am 
restricting to those who need access.
    So there is a layered approach that we could take to doing 
this so that there is not just one impenetrable ring but rings 
of security that would help us to deter any potential acts.
    Ms. Clarke. You also spoke to the cost.
    Ms. Stover. Yes.
    Ms. Clarke. and I would like for you to elaborate a little 
bit more on that and also state whether you think that there is 
something that government can do to support.
    Ms. Stover. Certainly. Thank you for the opportunity. Right 
now, currently, we are--and I don't have the numbers in front 
of me--but we have $2.5 million that we are expending on the 
guards. They cost about $23 an hour, we have four checkpoints, 
we operate 24/7. So we are spending about $2.5 million, 
including the maintenance costs of the equipment. We also are 
incurring $300,000 for the recently federal mandated 
requirement of vendor inspections to the sterile areas. One 
hundred percent of that is costing Miami Airport $300,000.
    We are about to open over 1 million square feet of new 
terminal in Miami, a whole new south terminal, and in order for 
me to maintain the current employee screening program that I 
have, I will need to open another three checkpoints at that 
cost of $1.3 million, and I am going to look to TSA to provide 
us with additional walk-through metal detectors for that new 
terminals, because we are closing down a portion of Miami 
Airport to develop the whole north terminal. So we are shutting 
it down, I will have screening equipment there, and I want to 
move it into the south terminal.
    And we have the vehicle access gates where employees enter 
through the airfield, and we are expending about $1 million 
there. So we are expending well over $5 million to $6 million 
on trying to raise the level of security.
    Ms. Clarke. And how are you paying for it?
    Ms. Stover. That is a very good question.
    [Laughter.]
    That is why we have a leaky roof in Miami Airport. We are 
just trying to look for grants and ways that we can make it 
happen. And we are thoughtful and mindful of our airports 
around the nation that also are in the same financial 
predicament. We want to work with the category I, II, III, IVs 
and Xs and with ACI and AAAE to come up with a practical 
solution.
    We do have an operation going on in Miami Airport right 
now. Today you may be hearing about it in the press. As a 
matter of fact, at 2 o'clock where I should have been at a 
press conference, I am up here with you all.
    But we had an investigation that is resulting in some 
arrests of airport workers. These workers are not physically 
screened by us. They have access to our cargo areas, so Mr. 
DeFazio would have been probably interested in that. But we are 
working with immigration and Customs Enforcement and the U.S. 
Department of Justice, and we dismantled an operation today in 
our cargo area.
    Ms. Clarke. I want to thank you for your response and your 
candor here today.
    The chair will now recognize other members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules and practice, I will recognize members who were 
present at the start of the hearing based on seniority on the 
subcommittee, alternating between the majority and the 
minority. And those members coming in later will be recognized 
in the order of their arrival.
    The chair recognizes for 5 minutes the gentleman from 
Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thank you, Madam Chair.
    Since we were talking about money just a second ago, I 
would like to ask the panel, any of you, do you think--have you 
seen--and I know, Ms. Stover, you are focused on Miami, but all 
of you, whether or not the TSA is overstaffed?
    Ms. Stover. You want to take that?
    Mr. Principato. No, I don't think TSA is overstaffed. I 
heard the points you made earlier, Congressman, and, certainly, 
several of our members had they been here would be able to tell 
you that they feel like they need additional resources at the 
airports to take care of the ever-increasing traffic they are 
seeing and so forth. So, no, I don't think TSA is overstaffed.
    Mr. Perlmutter. Mr. Holden, what do you think?
    Mr. Holden. Well, when we start our contract in San 
Francisco, we are over 1,100 screeners. The number today is 
down to 847, and that includes baggage screening for both 
passenger screening and baggage screening in January we were 
over 1,400 employees.
    So to answer your question directly, sir, no, I do not feel 
that they are overstaffed.
    Mr. Perlmutter. So your experience is similar to what has 
happened over at Denver's airport. Sounds almost similar 
numbers, except Denver may be a little bigger cut than you have 
suffered.
    Ms. Stover, what do you think?
    Ms. Stover. Did you want to answer the Denver question?
    I can speak to you on behalf of all of the airports. I 
participate regularly on the conference calls that they have 
with TSA, with AAAE, with ACI. And, really and truly, the 
screening allocations across the board, I don't know what the 
model is but I don't think it is thoughtful in truth into the 
operations of the airports. We are grossly understaffed, and I 
can just share that with you.
    I used to work for TSA, so I have been on the other side of 
the fence, and they have done a wonderful job of trying to 
allocate the cap, but that cap needs to raise.
    Mr. Principato. If I can just add one point. As Lauren 
said, TSA is working hard to deal with the cap and so forth and 
the resources. One of the arguments that we have made is that 
need over time to move from a labor-intensive to a technology-
intensive security system.
    Lauren talked before about inline baggage systems, for 
example. That would be one way to do that; there are many 
others. Moving from labor-intensive to technology-intensive I 
think would go a long way toward making the best use of those 
resources.
    Mr. Perlmutter. Thank you.
    In Denver, we have a lot of inline baggage systems to 
screen the bags, and I was very interested in looking at that, 
but there still is the people portion of all this, and my fear 
is that we are trying to move people along for purposes of 
getting them on their planes, but then there is so much 
pressure to move people along, you can make mistakes, and that 
is my fear.
    Here is my political statement--I am glad you answered my 
question the way I thought you would--is in the emergency 
supplemental bill that is in conference and will be presented 
to the president, there is at least $1.5 billion for technology 
and staff for the staff and for airport security. In the media, 
there has been a lot of talk about some of the farm pieces or 
this or that, calling it all pork, but, obviously, in my 
opinion, spending money on transportation security at our 
airports or our ports or our borders is not pork.
    And I would encourage all three of you to encourage your 
members or your friends to tell the president not to veto that 
bill. Thank you.
    That is my last question, Madam Chair, and I will yield 
back.
    Ms. Jackson Lee. [Presiding.] Let me thank Congresswoman 
Clarke for her dutiful duty.
    Mr. Perlmutter. Outstanding job.
    Ms. Jackson Lee. And her colleague even adds to that 
outstanding, and let me also thank Mr. DeFazio in his absence 
for helping us play a little tag here this morning.
    Let me provide a little backdrop to my questioning, and I 
thank all of you for being here and just to remind us that in 
the nation's airports, employees and contractors are currently 
free to roam wherever they want, even in sterile areas, and 
without prior screening. Giving workers open access to a 
sterile area is like installing an expensive home security 
system but leaving your backdoor wide open.
    This is a huge security gap. It already has been exploited 
for the purposes of carrying out criminal activities, and I 
believe that if we continue some of our Band-Aid approaches, it 
is only a matter of time before those who wish to do us harm 
will exploit this vulnerability to attack our nation.
    So it is the same thing that I started out with, is that we 
must be diligent.
    We have now a wonderful combination before us, a 
representative of a very, very large airport but one, Ms. 
Stover, where we still have the images of airport employees 
with their hands in the air or hands behind their back, who 
perpetrated this whole drug activity, certainly, maybe right in 
our eyesight but, certainly, as legal, if you will, employees 
of that airport.
    I am reminded every time I land of the appearance of, if 
you will, laxness on the apron part of the airport. For the 
airlines that I travel on, please note that I keenly look out 
the window as we are, if you will, taxiing, and it is literally 
a small city. The appearance is that it is clearly laissez-
faire, the goings and comings of individuals, deliveries, those 
who are giving direction, trucks driving back and forth. So it 
looks like an exposed area.
    And I think, Mr. Principato, you would be concerned, as 
your directors should be concerned, about that exposure.
    So my questions will be to see if we can get this sense of 
urgency, and although we want convenience and although we want 
to have a legislative initiative, I know the Senate has a bill, 
that balances interests, I said once that we cannot opt for 
bucks, dollar bills, over security. That goes to the whole wave 
of foreign ownership, it is okay because we are getting a buck. 
We have to look at how our ports are managed, even if we think 
it is in vogue to have foreign ownership or maybe it is not 
only in vogue but it is really the norm.
    The same thing with our airports. There are reasons to have 
convenience, because our traveling public is looking for 
fastness, but I would think that we also want security. We have 
got Mr. Holden here who has come out of the private sector, his 
company is in the private sector, and some airport, thought 
enough of the breach to engage Mr. Holden's company.
    So let me start with Mr. Principato to talk about TSA's 
plan, if you have not answered that. And when I say, talk about 
the plan, there are a lot of good elements to it. This week is 
dominated by Virginia and I am very sensitive. I think I 
mentioned in another committee that members are tempered in 
their actions. You will see us probably move swiftly in the 
weeks to come, but we are tempered because of the mourning. But 
the point is, is that we now know we have another element to 
bad acts behavior.
    Give me a sense of the urgency of your organization about 
moving quickly and whether or not this behavioral concept that 
now is glaringly before us in light of the horrific tragedy of 
Virginia Tech, where are you all going and what is your 
assessment of what TSA has begun to do?
    Mr. Principato. We have been working very closely with TSA 
on these concepts. ACI, AAAE and other organizations have been 
working very closely with TSA on these concepts and developing 
them.
    Let me say that, as I said earlier in my statement, airport 
directors and their staffs feel that sense of urgency every 
day. I get calls from our members from airport directors every 
day about all matter of things, but three-quarters of them--I 
keep track--three-quarters of them are about security and they 
are working day after day after day to improve the security at 
their airport.
    Professionals like Ms. Stover, who is sitting next to me 
here, working with her director, you mentioned Rick Vacar 
before and Mr. Mancuso down there, working very hard to 
increase the security at their airports.
    And we believe that you can never stand still, that you can 
never say, ``We are done. We have got the most secure system, 
we are done. We can't do anything more.''
    Which is why I am very excited about working with TSA on 
some of these concepts and rolling them out and trying to make 
sure that--testing them out, see what works, what doesn't work, 
what kind of combinations work and get the best possible system 
put in place, knowing that once we do that, we are going to 
keep at it, we are going to have to keep adjusting, we are 
going to have to keep changing, and we are never going to be 
able to go to sleep on this. This is something we have to do 
every day, and our members feel that acutely.
    Ms. Jackson Lee. Do you feel that you should move faster on 
this and should be moving more quickly now?
    Mr. Principato. I will say that that sense of urgency is 
there every single day, and, certainly, a discussion like this 
helps focus the mind.
    Ms. Jackson Lee. I will do to myself what I have done to a 
variety of members and yield myself an additional--I ask to 
yield myself an additional 3 minutes. Any objection?
    Ms. Stover, you do 100 percent screening at Miami. As I 
said to you, the images are still very prominent in our minds 
about the incident that occurred, one of the first more glaring 
incidents, others probably are occurring without 
newsworthiness. Orlando represents another one.
    You do 100 percent screening. What are your challenges? Why 
can't we implement the 100 percent screening and look closely 
at the apron of the airport? What a large airport you are 
addressing that question. Do you think you have gotten your 
hands around the apron aspect by the fact that you are 
screening 100 percent of the persons that are there?
    Ms. Stover. What we do today, quite frankly, won't be good 
enough for me tomorrow. We are getting our handle on this. I 
think more so than anything else, it is a deterrent from any 
type of illegal activity.
    Yes, we can implement 100 percent screening, and I am 
encouraged at the discussion. I know some airports are nervous 
about it, but, certainly, at Miami, we have intercepted 
firearms, we have intercepted stolen computers, large sums of 
cash and other items that were stolen. And I am proud of that 
program, and it took a lot of pain to get where we are at. And 
we got there based on a thoughtful approach of working with the 
airlines and the unions to incrementally reduce the access 
points.
    We didn't do it overnight; we did it in phases. So that 
where we are at today, only four access points with workers, 
five elevators that the guards there searching your personal 
effects. I am still not comfortable. I am still not comfortable 
about the insider threat, and a lot of that is because of the 
background checks.
    I won't get into too many details in a public forum, but 
the NCIC is more so the name-based background and fingerprints 
are more accurate, and I would like to know these airport 
workers that have been in our country for only a year. I don't 
know if they are persons of interest in international 
locations, and that is a disconnect that I would like to see 
the industry and TSA and members of Congress work more toward 
getting more expanded background and credentials.
    It doesn't necessarily prohibit an act like such happened 
at Virginia Tech the other day with a person whose prints came 
up clean and they basically went in and committed this 
massacre, but it is all a part of the discussion.
    Ms. Jackson Lee. Well, as we are ongoing in our thinking, 
remember, we mentioned behavior, and, certainly, that might 
have been an element that would have been very, very important 
in the assessment of the tragedy of Virginia Tech.
    Certainly, not knowing someone is being a person of 
interest and fingerprints being clean, but this tragedy of 
mental health issues but other behavior issues that may not be 
attributable to mental health, still, that may be another 
element, which is one of the things TSA has mentioned.
    Ms. Stover. Correct. And TSA could possibly think about 
rolling out a behavior program for airport security directors 
or the airport directors, a train the trainer type of approach. 
They are using SPOT, I am using Rafi Ron, who is the originator 
of the methodology. He has trained a core group of my police 
officers, and then I went to them and said, ``Okay, now you 
need to train us.''
    So we have a partnership on this and we are doing it, and 
we are now instituting a new directive that will require every 
airport worker who is going to get a badge or renew their badge 
to go through the training. So it will be woven into the fiber 
of the security program.
    Ms. Jackson Lee. Well, you heard me say as I started this 
hearing that we were going to have a series of hearings on a 
large number of airport security issues. Do you think that is a 
relevant approach to take?
    Ms. Stover. As a representative of the airports, yes, I do.
    Ms. Jackson Lee. Mr. Holden, thank you so very much and 
thank, if I might, the familia, Gerry, for making the 
accommodation to us. Tell us what you believe you have 
accomplished in Orlando. Again, that was a glaring news-focused 
breach, and I indicated that there are so many products that 
are provocative that employees have access to, one of which, 
which is conspicuous, would be weapons. Tell us how you believe 
you have worked your way into the system of airports and 
provided a service.
    Mr. Holden. Well, I will charge into the airlines and the 
airports. Specifically, it started in San Francisco, and we did 
that by assembling a team with airline background. We have been 
able to work with the TSA, with the airport authorities, with 
the FSDs at these airports to ensure that we are following all 
the guidelines and mandates that are set forth by the TSA.
    This cannot be accomplished by a company or a team alone. 
It has to be a team approach. And every airport that we go to 
our approach is to become a part of the team, to become a part 
of the family. And as we do these things and get lessons 
learned, we are able to increase where we stand in security.
    We make it a point to educate our employees on the need for 
security and the rules of security. We also go another step to 
make sure that we do not allow Bill Holden to work the same 
location every day. We think the movement of employees is very 
important.
    You asked about Orlando. We are able to work with the team 
in Orlando by, one, we have a history of being able to 
assemble, in a short timeframe, a number of employees to do the 
job, but we go a step further. It was mentioned earlier about 
background checks. In some areas that we have ventured, we are 
finding employees who had background checks who we have had to 
term, if I can use that, because of false location of 
background checks. This is one of the biggest challenges that 
we have is to make sure that background checks are thorough.
    Not only do we perform a background check using the 
standard methods, but we have in place a process wherein that 
we meet all employees to question the employees. We have a very 
extensive checklist to make sure that we try to capture with 
each new hire or each incumbent employee anything in the 
background that may be service that would not ordinarily allow 
that person to work.
    So working with the airports as a team, working with FSD as 
a team, working with the airport community as a team helps us 
succeed in what we are doing as far as security.
    Ms. Jackson Lee. Did you use Miami as a model or did you 
create a new model? Is there any enhanced technology that you 
have that you are utilizing?
    Mr. Holden. We use Miami's history as a model. We use the 
information that we have in ADASP, and we also use our past 
experience with other security that we have performed outside 
of the airport community.
    Ms. Jackson Lee. Do you believe that it is important, as 
you look at airports across the country, San Francisco, 
Orlando, that continued assessment of the security concerns at 
airports is an important responsibility or challenge for this 
committee? Should we continue to have oversight over new and 
different ways to improve the security of airports and of 
course airlines and the traveling public?
    Mr. Holden. After the events of 9/11, my concerns with 
airport security was as we move further down the road from 
airport security that changing face that we apply to airport 
security on 9/11 will soon fade away. Without oversight of 
airport security, we will be back to the point we were prior to 
9/11. We need to dedicate the resources to ensure that we do 
not go back to the events prior to 9/11 and changing the face 
of security. We have got to continue to build on what we have 
and what we have accomplished and not lose sight of the fact 
that airport security is and should be strong.
    Ms. Jackson Lee. Mr. Principato, I am going to let you 
answer, but let me yield first to the very patient 
distinguished gentleman from Colorado--
    Mr. Perlmutter. I have already gotten to speak. I thought 
this chairman was--
    [Laughter.]
    Ms. Jackson Lee. All right. It is good to be able to have 
colleagues in the same class salute each other.
    Then that means I can yield to Mr. Principato. Thank you.
    Mr. Principato. Thank you. Just very quickly, and maybe not 
to differ entirely from what Mr. Holden said, of course, I 
think there is a proper role for the oversight of this 
subcommittee and the Congress, and we welcome that.
    I don't think we are ever going to--
    Ms. Jackson Lee. Say that again, Mr. Principato.
    Mr. Principato. There is certainly a role for the oversight 
of the Congress and this committee and this subcommittee, and 
we welcome that, but I don't think we are ever going to go back 
to the mindset, the pre-September 11, 2001 mindset. I think we 
are cured of that. I don't think that is going to happen. You 
certainly have the pledge of this organization and our members 
that that is not going to happen, but we do certainly welcome 
that oversight and the ability to work with you.
    Ms. Jackson Lee. As I close this hearing, I am going to 
play a game show a little bit and ask each of you to give just 
one issue of security that you think we should, going forward, 
be cognizant.
    Ms. Stover, you had mentioned something toward the end of 
your testimony, I don't know if you remember that, and you 
might repeat it, but you were saying something needed to be 
expanded, and I am sorry that I didn't catch it, but you may 
have a new idea as we go to the three of you, as I close the 
hearing.
    Ms. Stover. Okay. Well, you are asking me to pick one that 
I think is the most important.
    Ms. Jackson Lee. And you won't be limited to that. We will 
have you back.
    Ms. Stover. Oh, thank you.
    I think the credentialing and the background checks are 
critically important to revisit, and, of course, we are a 
proponent of the employee screening. We would like to see that 
woven into your legislation if it is done with the 
thoughtfulness of the configuration of each of the airports. 
And then, lastly, behavior pattern recognitions, because we 
were the first airport to lead the way on that, so I have to 
say that.
    Ms. Jackson Lee. And you are still going strong.
    Ms. Stover. Oh, absolutely. And no one is going to get 
their ID back unless they go through my 2-hour course.
    Ms. Jackson Lee. Mr. Principato?
    Mr. Principato. I am going to agree with everything Lauren 
just said and add, as I said in my discussion with Congressman 
Perlmutter before, the movement from a labor-intensive to a 
technology-intensive security system, making greater use of 
technology, for example, inline EDS systems, which will make 
the security--
    Ms. Jackson Lee. Pardon me?
    Mr. Principato. Inline EDS, which will make the security 
system much more efficient and much more secure and allow us to 
better utilize those scarce resources.
    Ms. Jackson Lee. Thank you.
    Mr. Holden?
    Mr. Holden. We have benefited greatly from technology. With 
everything good sometimes come things bad, so I have to agree 
with my distinguished colleague, credentialing and background 
checks. Technology has helped the bad boys, if you can call 
them that, to breach security with false ID. So credentialing 
and background checks is very, very important.
    Ms. Jackson Lee. Thank you very much.
    This Congress is at a crossroads, the committee is at a 
crossroads. That is to be able to match the major function of 
airports, the traveling public, with the new era in which we 
find ourselves, not in this country, but in this world. Having 
been to a number of borders, northern border, southern border, 
Europe, if you will, and the third border, we find out that 
areas that are surrounding the United States are also part of 
the story of security.
    This committee will look both nationally and 
internationally as we look at the traveling public and ways of 
providing security. We will need the cooperation of the 
Airports Council, we will need the cooperation of major and 
small airports around the nation and frankly the world.
    And, Mr. Holden, we certainly are hopeful that there will 
be transparent contracts rendered by airports and the 
Department of Homeland Security and they will be effective 
partners, as we know that Orlando believes that you have been, 
your company has been, to be able to provide us security. The 
only way we can get past the crossroads is that cooperative 
spirit and information.
    This committee may submit to the members additional 
questions. We would ask that you would expeditiously submit 
those questions back to us. We expect that will have the 
opportunity to have a markup shortly, and as we do so, we will 
be cognizant of the work that each and every one of you have 
done.
    So I thank you for the valuable testimony, and I thank the 
members for their questions and their insight. We usually have 
a vigorous markup. I know there will be a number of amendments 
that will reflect the different viewpoints of members, but we 
will cite airports that have 100 percent screening of their 
employees, and we will make the point that their doors are 
still open.
    And so we can find ways to accommodate our friends, pilots, 
flight attendants and others, but we will make sure that we 
move forward on the challenge that we have of securing America.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 1:50 p.m., the subcommittee was adjourned.]

                             For the Record

       Prepared Statement of The Honorable Ginnie Brown-Waite, a 
          Representative in Congress from the State of Florida

    I am in complete support of Congresswoman Nita Lowey's bill, H.R. 
1413. The bill's purpose, to ``direct the Assistant Secretary of 
Homeland Security (Transportation Security Administration) to address 
vulnerabilities in aviation security by carrying out a pilot program to 
screen airport workers with access to secure and sterile areas of 
airports,'' is something our nation desperately needs to secure our 
airports. I also have a submission I would like to put in to the record 
from the Orlando Aviation Authority on this subject.
    Recent events that took place at the Orlando International Airport 
are a case in point.
    The arrest last month of various airline employees attempting to 
smuggle 13 handguns and 8 pounds of marijuana aboard a flight from 
Orlando International Airport to San Juan, Puerto Rico, is a perfect 
example of a striking gap in airline security nationwide.
    Specifically, the fact that airline employees are not required to 
go through the same security checkpoints as other passengers leaves a 
huge gap in our aviation security system. Given that an employee was 
willing to take the risk of smuggling illegal weapons and drugs onto a 
flight for a few thousand dollars would certainly lead one to believe 
it plausible that an employee of an airline could be bribed by well 
financed terrorists to obtain access to an airport's infrastructure.
    On March 12th I met with TSA officials and Members of the Greater 
Orlando Aviation Authority at the Orlando airport. Together, we reached 
an agreement that the airport would provide 1005 screening of all 
Orlando International Airport employees, baggage and passengers.
    Miami International Airport already has a program which screens 
every worker, and there is no reason why Orlando, or in fact, all 
airports nationwide, should not be conducting the same type of security 
measures.
    For Florida, tourism and travel form the backbone of Florida's 
economy, and obviously, those traveling to the state need to feel safe 
during their commute. Similarly, those traveling domestically and 
internationally via U.S. airports need to be secure, and increasing and 
enforcing security procedures for airline employees serves as an 
important step forward towards achieving this goal.

                               ----------

                            GREATER ORLANDO

                           AVIATION AUTHORITY

                              TESTIMONY BY

                                  THE

                   GREATER ORLANDO AVIATION AUTHORITY

                               Hearing on

            AIRPORT SECURITY: THE NECESSARY IMPROVEMENTS TO

                       SECURE AMERICA'S AIRPORTS

                             April 19, 2007

 Before The subcommittee on Transportation Security and Infrastructure 
                               Protection

                     Committee on Homeland Security

    Thank you for the opportunity to comment on HR 1413. Your 
leadership in promoting safety and security for the traveling public is 
appreciated by airports across the United States.
    Our goal is to work in cooperation with the Department of Homeland 
Security and State and local law enforcement agencies to ensure the 
safety and security of passengers traveling through Orlando 
International Airport.
    Attached you will find a recent presentation approved by the 
Greater Orlando Aviation Authority Board. This presentation lays out in 
detail the Authority's plan to screen employees with access to secure 
and sterile areas of the airport.
    The Authority is funding $1.8 million in additional equipment costs 
and an additional $3.2 million in personnel costs for a total of $5 
million during the first year of this program. The cost of this program 
will place a burden on an already constructed budget.
Attachment:

                            Enhanced Employee
                                Screening 
                                The Plan

    1.  Reduce Access
    2.  Add Technology
    3.  Enhance Employee Screening

                      Enhanced Employee Screening

                 Baggage Make-Up to Baggage Claim Doors

    1.  TSA to provide screening
          at these doors (    )
          under interim agreement

    2.  GOAA to provide
          additional Customer
          Service Representatives
          on a 1 to 1 basis

    Projected additional cost: $1 million

                      Enhanced Employee Screening

                       Vehicle Entry Checkpoints

    Emergency Purchase Order with
    Covenant AviationSecurity
    <bullet> TSA Certified Company
    <bullet> Training to be provided
        by Lockheed Martin
    <bullet> Mobile force can be
        expanded to other locations
    <bullet> Immediate start up

    Projected additional cost: $2.2 million

                      Enhanced Employee Screening

    <bullet> Add additional security
        equipment
    <bullet> Fixed and mobile assets
    <bullet> State and Federal
        procurement lists
        will be used

    Projected additional cost: $1.8 million

                       Funding for Implementation:  1. Equipment costs from 1997 Revenue                    $1.8 million
                                Bonds2. Personnel costs from Operations and                   $3.2 million
                     Maintenance Fund                               Total:                    $5.0 million  3. Possible federal & pilot program
                       appropriations                      Greater Orlando
                   Aviation Authority       Wednesday, March 21, 2007
                                 <all>

</pre></body></html>
